<html>
<title> - STABILIZATION AND RECONSTRUCTION OPERATIONS: LEARNING FROM THE PROVINCIAL RECONSTRUCTION TEAM (PRT) EXPERIENCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-98]

    STABILIZATION AND RECONSTRUCTION OPERATIONS: LEARNING FROM THE 
            PROVINCIAL RECONSTRUCTION TEAM (PRT) EXPERIENCE

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 30, 2007

                                      
         [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                               -----

                     U.S. GOVERNMENT PRINTING OFFICE

40-714 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, October 30, 2007, Stabilization and Reconstruction 
  Operations: Learning from the Provincial Reconstruction Team 
  (PRT) Experience...............................................     1

Appendix:

Tuesday, October 30, 2007........................................    45
                              ----------                              

                       TUESDAY, OCTOBER 30, 2007
    STABILIZATION AND RECONSTRUCTION OPERATIONS: LEARNING FROM THE 
            PROVINCIAL RECONSTRUCTION TEAM (PRT) EXPERIENCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Christoff, Joseph A., Director, International Affairs and Trade, 
  U.S. Government Accountability Office..........................     9
Herbst, Ambassador John E., Coordinator for Reconstruction and 
  Stabilization, U.S. Department of State........................     4
St. Laurent, Janet A., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............     7
Ward, Celeste, Deputy Assistant Secretary of Defense for 
  Stability Operations Capabilities, Department of Defense.......     6

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    51
    Christoff, Joseph A. joint with Janet A. St. Laurent.........    66
    Herbst, Ambassador John E....................................    54
    Snyder, Dr. Vic..............................................    49
    Ward, Celeste................................................    63

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Ms. Davis....................................................   105
    Dr. Snyder...................................................    93













 
     STABILIZATION AND RECONSTRUCTION OPERATIONS: LEARNING FROM THE 
            PROVINCIAL RECONSTRUCTION TEAM (PRT) EXPERIENCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Tuesday, October 30, 2007.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The subcommittee will come to order. Good 
morning. We appreciate our witnesses being here this morning 
and all other folks in attendance.
    This is the Subcommittee on Oversight and Investigation's 
hearing on stabilization and reconstruction operations, 
learning from the provincial reconstruction team experience.
    This subcommittee has conducted a series of hearings and 
briefings on the PRT problems and challenges in Afghanistan and 
Iraq to get a getter understanding of what the PRTs are, what 
they do, and the contribution that they are making in 
stabilizing Afghanistan and Iraq.
    Every witness and every PRT veteran we heard from, both at 
our public meetings and our private briefings, told the 
subcommittee that PRTs are a vital tool and are critical to the 
success of our operations.
    We have heard that much of what any given PRT does is 
determined by the team on the ground based on local or 
provincial needs and the security conditions in the area in 
which it is serving.
    In Afghanistan, we know the PRT's job is to extend the 
reach of the Afghan central government out to the provinces. In 
Iraq, some PRTs are there to help develop provincial government 
capacity, while others are there to assist and advise the 
brigade combat team commanders in the conduct of 
counterinsurgency operations at the local level.
    But beyond that, we have heard that the PRT mission 
statements are vague, that they need clearly defined 
objectives, and that there is no concrete means to assess their 
effectiveness.
    One witness boiled the situation down into a single phrase, 
``Improvisation is not a concept of operations.'' That witness, 
Robert Perito, of the United States Institute of Peace, argued 
that guidance needs to come from Washington and that that 
guidance needs to be from a very senior level.
    Stuart Bowen, the special inspector general for Iraq 
reconstruction, testified that the U.S. experience with PRTs 
has been ad hoc and that we need a more effective interagency 
approach and structure for stabilization and reconstruction 
operations.
    Throughout the discussions this committee has had and the 
testimony that we have heard, given these challenges, we have 
been very, very impressed with the personnel from the varied 
agencies that participate in PRTs. They are some of the most 
remarkable Americans and we commend them for the work that they 
do.
    Our concern is that perhaps we in Washington are not doing 
everything we ought to do to help them in their efforts.
    We chose the PRT topic several months ago now because PRTs 
are critical to our efforts in Afghanistan and Iraq. We also 
chose to examine them because they represent a case study on 
how the interagency process works or does not work in 
Washington and in the field, which brings us to this hearing 
today.
    We have witnesses today from both the State Department and 
the Department of Defense who are working on improving 
interagency planning, resourcing, management and oversight of 
future stabilization and reconstruction operations, and one of 
them, Ambassador Herbst--is it Herbst?
    Ambassador Herbst. Herbst.
    Dr. Snyder. We have great expectations for you today, 
because there have been a lot of people bragging on you over 
the last several weeks from folks we have heard. We very much 
appreciate your efforts.
    We also have Government Accountability Office (GAO) 
witnesses who have been examining the interagency efforts that 
our two executive branch witnesses are responsible for.
    We also want to thank Mr. Shays, who allowed Mr. Akin and I 
to sign on as a co-requestor for the GAO report that has been 
prepared on the DOD efforts.
    Our panel of witnesses today includes Ambassador John 
Herbst, the State Department's coordinator for reconstruction 
and stabilization; Ms. Celeste Ward, the deputy assistant 
secretary of defense for stability operations capabilities; Ms. 
Janet St. Laurent, the director of the Defense Capabilities and 
Management, United States Government Accountability Office; 
and, Mr. Joseph Christoff, director of international affairs 
and trade team, also from GAO.
    And I want to say, for our committee members, for those of 
you who have read or who have not read the statements today, I 
thought a lot of what we read in these reports today was some 
of the biggest [expletive] gobbly-gook I have read in a long, 
long time. That was the biggest [expletive] gobbly-gook, Dr. 
Gingrey.
    The challenge for us is it important gobbly-gook, and we 
need to sort that out with the help of our witnesses here 
today, because at some point, it is having direct impact on 
very brave men and women we have in Iraq and Afghanistan today, 
and we will talk more about that later.
    Now, I would like to yield to Mr. Akin for any opening 
statement he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 49.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Dr. Snyder. And thank you all for 
taking time to be with us this morning. The fact that you have 
this many people on a subcommittee hearing means that you have 
interest. Usually, there is the chairman and maybe the ranking 
person.
    This particular public hearing on provincial reconstruction 
teams, it is not our first, but we want to take a look at the 
policy framework for dealing with stabilization and 
reconstruction operations.
    While we have studied the PRT concept, how an interagency 
team comprised of civilian and military personnel works to 
extend the reach of government into regional provinces and 
local areas, we have not investigated how the PRT experience is 
affecting how policy-makers in Washington plan for future 
stabilization contingencies.
    While we may not be engaged in the future in a nation 
building operation equal to the scale of what we are currently 
doing in Iraq and Afghanistan, I think it is fair to say that 
the United States will likely be engaged in similar 
contingencies in the coming decades.
    We were conducting similar operations in Bosnia and Haiti 
in the 1990's. September 11 has only reinforced the importance 
of these missions.
    Even those skeptical of nation building understand that 
stable states are less likely to have ungoverned spaces where 
terrorists find safe harbor.
    The focus of today's hearing, therefore, is to learn how 
the Defense and State Departments are ensuring that we are 
translating lessons learned from Iraq and Afghanistan in a 21st 
century interagency apparatus that has the resources, the 
capabilities, and plans to run seamless interagency 
stabilization operations.
    This is the goal of the national security Presidential 
directive NSPD-44. Today our witnesses will tell us how these 
are progressing.
    I am curious how the State Department, particularly, the 
coordinator for reconstruction and stabilization understands 
its role as lead agency for reconstruction and stabilization 
under the new directive. This subcommittee is certainly 
interested in learning more about how your office is building 
three distinct corps of civilian agency personnel for these 
types of missions. And this is a welcomed initiative.
    I am particularly interested in what tools the civilian 
reserve corps will need to be successful. Such success will 
hinge, in large part, in determining the role of the Department 
of Defense in future stabilization operations.
    The directive makes stabilization operations a core mission 
for Defense Department on par with combat operations. When I 
think this catches up DOD policy with the reality that has been 
true in the department for almost two decades, I am interested 
in how we are going doing on policy execution, whether our 
combatant commanders are planning for these missions and 
whether the services are budgeting and building the 
capabilities for this mission.
    I would like our witnesses to comment on how they think the 
Department of Defense is progressing in terms of implementing 
this directive. If there are any hurdles, please identify what 
they are.
    Again, thank you all for joining us this morning.
    Thank you, Mr. Chairman, for pursuing, I think, a very 
interesting line of questions for oversight.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 51.]
    Dr. Snyder. Thank you, Mr. Akin.
    We have had requests from some members who are not a member 
of the Armed Services Committee nor this subcommittee to join 
us. So I will ask unanimous consent that they be allowed to 
participate, if they arrive.
    We are going to go in the order that I--I think just right 
down the line here.
    Ambassador Herbst, I want to begin with you, because you 
have the overall responsibility for some of the things we are 
talking about, and then we will hear from the other witnesses.
    We will have Suzanne put the five-minute clock on you. So 
you will get a green light, then a yellow light, and then a red 
light. But in contrast to our members here, I will not rap the 
gavel on you. If the red light goes on, but you still have some 
things to share with us, you feel free to go ahead. It is just 
to give you a sense of where the time is.
    So we will begin with you, Ambassador Herbst.

    STATEMENT OF AMBASSADOR JOHN E. HERBST, COORDINATOR FOR 
   RECONSTRUCTION AND STABILIZATION, U.S. DEPARTMENT OF STATE

    Ambassador Herbst. Thank you, Mr. Chairman and members of 
the subcommittee for the opportunity to testify.
    Weak and failed states pose a serious security challenge 
for the United States and the international community. They can 
become breeding grounds for terrorism, weapons of mass 
destruction, proliferation, trafficking in humans and 
narcotics, as well as organized crime.
    Since the end of the Cold War, the United States has been 
engaged in or contributed significant resources to more than 17 
reconstruction and stabilization operations. The challenge 
persists and will persist well into the future.
    If the U.S. Government is going to meet these threats, we 
must adapt our national security resources appropriately. State 
Department/Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) was established in 2004 to do just that. 
Starting with just a handful of staff, the office has grown to 
over 80.
    My office is charged with two tasks. The first is to ensure 
that the entire U.S. Government is organized to deal with 
reconstruction and stabilization crises affecting our national 
interests. That includes harmonizing civilian and military 
activities, making sure that civilians operate as one team.
    Our second task is to enable the civilian capacity to staff 
these missions when called upon to respond. These tasks are 
easy to describe, not so easy to achieve.
    They require nothing less than revolution in the way that 
the civilian part of the U.S. Government operates, something 
similar to the reforms in the military in the 1980's with the 
Goldwater-Nichols legislation.
    In December 2005, President Bush issued National Security 
Presidential Directive 44 to improve the management of 
reconstruction and stabilization operations. The directive 
states that the secretary of state is responsible for this and 
that S/CRS is her executive arm for doing this.
    We have made significant progress on implementing the 
National Security Presidential Document-44 (NSPD-44) and the 
pace has moved very quickly over the past eight months. 
Specifically, on task one, how we organize the Federal 
Government, we have created the interagency management system.
    It has been approved by the National Security Council 
(NSC). It involves the following structures. There will be a 
policy group, a country reconstruction and stabilization group 
that will manage the policy for senior policymakers.
    Under this, there will be a secretariat run by my office. 
All members of the interagency who have a role in the crisis 
are a part of the secretariat. Most importantly, the 
secretariat will draft a civilian plan of operations, ensuring 
that all parts of our government operate as one team and that 
this is linked up with the military.
    To ensure linkage to the military even more strongly, we 
will create an integration planning cell. This is an 
interagency group led by S/CRS that would deploy to the 
relevant combatant commander if military forces are involved in 
the stabilization operation, if the U.N. military force they 
deploy to the U.N. military headquarters.
    The purpose is to make sure that military and civilian 
plans are completely linked up.
    The last institution that will be created in the 
interagency management system is the advance civilian teams. 
This is actually our phrase for PRTs. These will be an 
interagency team, probably, in most cases, led by S/CRS, but 
involving all members of the interagency that will deploy to 
the country in crisis.
    If there is an American embassy in place, the ambassador 
will have control over this mission. If not, this will be the 
senior U.S. civilian's authority in that country.
    That is what we have done to achieve our first objective.
    To achieve our second objective, building civilian capacity 
to respond, to actually go into the field, we have created 
three pools of people. The inner corps is what we call the 
active response corps. These are people who will sit in the 
government whose full-time job is to train and be ready to 
deploy to a country in crisis.
    My office right now has ten such active response corps 
members. If you take, for example, the Lugar-Biden legislation 
that has been submitted to authorize this activity, they talk 
about 250 active response corps members seated throughout the 
Federal bureaucracy.
    The second pool of people are the standby response corps. 
These are people sitting, again, in the civilian interagency. 
They have full-time day jobs, but they will train for two to 
three weeks a year so that they could deploy in a crisis.
    The Lugar-Biden legislation talks about 2,000 such members. 
Right now, we have, in the State Department, about almost 100.
    The idea is that these folks would be ready to go when you 
have a crisis and within 45 days of a decision, they get 
deployed to the field.
    The last corps is the civilian reserve corps. This 
functions much like our civilian armed military reserves. These 
are civilians who would sign up for four years. In this four-
year period, they would be training two or three weeks a year. 
They would have an obligation to deploy for up to one year in 
this four-year period.
    If we develop all of these corps, we would have the ability 
to put hundreds of people, maybe even 1,000 or more, on the 
ground in a crisis, civilians with the necessary skills, within 
60 days of a decision.
    Thank you very much. Under five minutes.
    [The prepared statement of Ambassador Herbst can be found 
in the Appendix on page 54.]
    Dr. Snyder. Thank you, Mr. Ambassador.
    Ms. Ward.

   STATEMENT OF CELESTE WARD, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR STABILITY OPERATIONS CAPABILITIES, DEPARTMENT OF 
                            DEFENSE

    Ms. Ward. Mr. Chairman, Mr. Akin and distinguished members 
of this committee, I would like to thank you for inviting me to 
discuss such a critical issue for our military and for our 
government.
    I have submitted my written statement, but I thought I 
would make a few points of introduction.
    As deputy assistant secretary of defense for stability 
operations capabilities, part of my charter is to make 
recommendations for how to enhance the capabilities of our 
military forces to confront irregular challenges, to include 
conducting stability operations.
    I am also charged with exploring ways that our military 
forces can and should work with our interagency colleagues in 
operations that require the application of both civilian and 
military capability.
    I have been at this work for a little over two months now. 
I am returning to government, where my last post was as the 
political advisor to Lieutenant General Chiarelli, the 
operational commander of our forces in Iraq, in 2006.
    This was my second tour in Iraq. During my first tour, I 
participated in the rebuilding of the Iraqi ministry of defense 
and other Iraqi national security institutions.
    So I come to my current job with some experience and some 
perspective about how we might adapt our government 
institutions to better prepare for them for the challenges we 
face now and in the future.
    The Department of Defense has taken significant steps to 
adapt the armed forces to better confront irregular challenges 
and stability operations. Among these steps, in 2005, the 
department issued DOD Directive 3000.05, military support to 
security, stability, transition and reconstruction operations, 
by which the department was instructed to accord stability 
operations priority comparable to major combat operations, as 
you noted, sir.
    Since DOD Directive 3000.05 was signed, the department has 
taken steps to implement the directive's vision by focusing on 
those areas most likely to generate systemic change throughout 
our armed forces, to include planning, doctrine, training and 
education, organization, intelligence, and information sharing.
    The Defense Department has also taken major steps in better 
integrating our planning, training and operational concepts 
with our interagency colleagues. My office works closely with 
Ambassador Herbst and S/CRS as they build the State 
Department's and the broader interagency' capabilities.
    As Secretary of Defense Robert Gates said recently, ``Our 
military must be prepared to undertake the full spectrum of 
operations, including unconventional or irregular campaigns, 
for the foreseeable future. The nonmilitary instruments of 
America's national power need to be rebuilt, modernized and 
committed to the fight.''
    Mr. Chairman and members of the committee, I genuinely 
appreciate your interest in these issues and the insightful 
questions that you are asking. I look forward to discussing 
these matters and to working with you to adapt our institutions 
to better confront the challenges facing our nation.
    Thank you.
    [The prepared statement of Ms. Ward can be found in the 
Appendix on page 63.]
    Dr. Snyder. Thank you, Madam Secretary.
    I should have let you all know, too, that your written 
statements will be made a permanent part of the record.
    Now, our two GAO folks, do you have a preference on which 
of you goes first?
    Ms. St. Laurent. I will start out.
    Dr. Snyder. Go ahead, Ms. St. Laurent. I assume you both 
are testifying, is that correct? You have different 
responsibilities.
    Ms. St. Laurent. Yes. We have one written statement, but we 
would like to do separate oral statements.
    Dr. Snyder. That is made a part of the record.
    Ms. St. Laurent.

     STATEMENT OF JANET A. ST. LAURENT, DIRECTOR, DEFENSE 
  CAPABILITIES AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. St. Laurent. Mr. Chairman and members of the committee, 
thank you very much for inviting GAO to be here today to 
discuss DOD's efforts to improve its stability operations 
capabilities.
    Today I would like to focus on two issues--first, DOD's new 
approach to stability operations and, second, DOD's challenges 
in implementing this approach and enhancing its capabilities 
and plans and efforts to work in an interagency environment.
    My remarks are based on a report we issued in May 2007 on 
actions needed to improve DOD's stability operations approach. 
First, DOD has taken several positive steps to implement a new 
approach.
    In November 2005, as other witnesses have mentioned, DOD 
issued a new directive, the elevated stability operations to a 
core DOD mission. We believe that this is a very important and 
positive step.
    The directive assigns responsibility for improving DOD's 
capabilities to 18 various DOD organizations, including the 
services, the combatant commands, the office of the secretary 
of defense, and assigned them over 115 tasks.
    DOD has also modified its guidance to combatant commanders 
for developing routine military contingency plans. 
Specifically, DOD's new guidance places greater emphasis on 
pre-conflict efforts to stabilize countries or regions so that 
conflicts do not develop.
    It also emphasizes the need to plan for post-conflict 
stabilization and reconstruction activities, when they are 
necessary, in conjunction with civilian agencies.
    Third, DOD has developed a new joint operating concept for 
stability operations that would address all of the services' 
efforts and involvement.
    Finally, each of the services has begun to implement 
initiatives to improve their capabilities. For example, both 
the Army and Marine Corps are taking steps to improve cultural 
awareness and language training.
    Despite these positive steps, we identified four major 
challenges that may hinder DOD's ability to improve its 
capabilities. First, although DOD's new directive requires the 
department to identify and prioritize needed capabilities, DOD 
has made limited progress in this area to date.
    Specifically, some officials we spoke to from the services 
and the combatant commanders expressed some confusion regarding 
what approach or process they are supposed to use to identify 
capability gaps.
    Moreover, the undersecretary for policy has not yet 
developed a list of priority capabilities, as required by the 
directive. Completing a capability gap analysis in a systematic 
way is particularly important, since it can help to focus DOD's 
efforts on the highest priority issues and provide a foundation 
for resourcing decisions.
    Second, DOD has made limited progress to date in developing 
measures of effectiveness. DOD's directive required numerous 
organizations within DOD to develop measures of effectiveness 
that could be used to evaluate progress in meeting the 
directive's goals.
    However, DOD has not completed this task because, again, 
significant confusion exists among the services and combatant 
commanders over how to develop these measures and limited 
guidance has been provided by OSC to date.
    Third, DOD has not yet determined what mechanisms should 
best be used to obtain interagency participation in the 
development of military plans. We found that the combatant 
commands are beginning to establish interagency working groups 
and reaching out to embassies. However, coordination with 
numerous embassies can be cumbersome for a combatant command 
and civilian agencies often do not receive draft military 
contingency plans until late in the planning process, if at 
all.
    Several factors currently hinder interagency participation 
in the development of DOD's plans. First, DOD has not yet 
provided specific guidance to combatant commanders on what is 
the most effective mechanism to use.
    Second, DOD's policy is to not share contingency plans with 
DOD agencies unless explicitly authorized by the secretary of 
defense and when that is authorized, again, it is usually late 
in the plan development process.
    Third, DOD and civilian agencies, such as State and United 
States Agency International Development (USAID), lack a 
complete understanding of each other's planning processes, 
cultures and capacities.
    In addition, we found that military planners are not 
consistently incorporating lessons learned from past 
operations. DOD routinely collects lessons learned in numerous 
databases. However, accessing and searching these databases is 
cumbersome and DOD's plans review process does not always 
evaluate the extent to which lessons learned are used.
    Our May 2007 report included several recommendations to 
help DOD address these challenges. Specifically, we recommended 
that the undersecretary for policy establish a clear 
methodology for identifying and prioritizing capability gaps 
for stability operations; second, distribute better guidance on 
how to develop measures of effectiveness.
    We also recommended that DOD, in coordination with the 
State Department, take efforts to establish mechanisms to 
involve civilian agencies in the development of combatant 
command plans, facilitate information sharing, and include 
civilian agencies in the development and the use of lessons 
learned.
    In conclusion, although DOD has taken a number of positive 
steps to improve interagency cooperation, several obstacles 
must be overcome before significant results are achieved.
    Overcoming these obstacles and implementing our 
recommendations will require DOD's sustained leadership and 
partnership with other agencies.
    Thanks very much.
    [The joint prepared statement of Ms. St. Laurent and Mr. 
Christoff can be found in the Appendix on page 66.]
    Dr. Snyder. Mr. Christoff.

   STATEMENT OF JOSEPH A. CHRISTOFF, DIRECTOR, INTERNATIONAL 
    AFFAIRS AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Christoff. Mr. Chairman, thank you again for inviting 
us. I am going to address my remarks to the State Department 
side of the interagency approach.
    Following problems with early reconstruction efforts in 
Iraq, the State Department concluded that the United States had 
relied on ad hoc processes for planning and executing stability 
operations in Iraq.
    State also found that the U.S. Government had no civilian 
capacity to plan and manage these operations.
    So in December 2005, the Administration issued NSPD-44 to 
improve the planning and implementation of stabilization and 
reconstruction operations. The Secretary of State was assigned 
to lead these efforts.
    My testimony today discusses our preliminary findings, some 
of our report that we will issue next week. The report provides 
our assessment of State Department's efforts to develop 
civilian response corps and an interagency framework to better 
manage and plan stability operations.
    First, in terms of the interagency framework, we found that 
the National Security Council had adopted two elements of the 
proposed framework, an interagency management system and 
procedures for using the framework. State is currently 
rewriting a third component, the ``Guide for Planning 
Operations,'' to address the interagency concerns.
    We believe it is difficult to determine the framework 
effectiveness, since it has not been fully applied to any 
reconstruction and stabilization operation.
    While S/CRS has used draft versions of its planning guide 
to plan operations in Haiti, Sudan and Kosovo, implementation 
of the plans has been limited.
    The Administration is using existing processes under NSPD-1 
for operations in Afghanistan and Iraq.
    As State completes the framework, it must address three key 
issues. First, there is inconsistent guidance as to who will 
plan stabilization and reconstruction operations. S/CRS 
interprets NSPD-44 as assigning these roles and 
responsibilities to itself.
    In contrast, the foreign affairs manual assigns these 
responsibilities to State's regional bureaus and chiefs of 
mission.
    We have found that this has resulted in confusion and 
disputes about who will develop plans and policies for these 
types of operations.
    Second, the framework does not define what constitutes 
stabilization or reconstruction operations. It does not 
distinguish these from traditional development assistance of 
counterinsurgency or counterterrorism operations.
    As a result, it is not clear when, where or how the 
Administration would apply this framework.
    And, third, officials expressed concern about the 
framework's usefulness. These state staff characterize aspects 
of the framework as unrealistic and redundant, because 
interagency teams had already devised planning processes under 
NSPD-1.
    Others asserted that senior management had shown ambiguous 
support for S/CRS by not giving it responsibility for 
operations in Lebanon and Somalia.
    We intend to recommend that State clarify S/CRS' authority, 
complete the framework, and test it on an actual operation.
    Let me turn to the civilian corps. Since 2005, State has 
been developing three civilian corps to deploy rapidly to 
international crises. State established two units made up of 
State employees, an active response corps with active first 
responders, and deploy immediately to unstable environments to 
assess a country's needs and coordinate a U.S. response.
    A standby reserve corps would act as second responders and 
would provide additional skills and staff. And State is 
developing a third corps, the civilian reserve corps, which 
would be made up of civilian police officers, judges, public 
administrators and civil engineers from outside the Federal 
Government, and these civilians would become Federal employees 
and would deploy for up to one year.
    State and other agencies face challenges in establishing 
these three civilian corps, including, first, achieving plan 
staffing levels and training; second, securing resources for 
international operations that some agencies do not view as part 
of their domestic missions; and, third, ensuring that home 
units are not understaffed as a result of overseas deployments.
    In addition, State needs congressional authority to 
establish the civilian reserve corps and to provide a benefits 
package that will attract volunteers.
    As part of State's request to authorize the civilian 
reserve corps, we are considering recommending that the 
department provide Congress with complete information on the 
corps' annual costs, training needs, types of operations for 
which it would be used, and potential obstacles that could 
affect recruitment and retention.
    Mr. Chairman, that concludes my statement. Thank you.
    [The joint prepared statement of Mr. Christoff and Ms. St. 
Laurent can be found in the Appendix on page 66.]
    Dr. Snyder. Thank you all for your testimony. Mr. Akin and 
I and all the members of the committee will be on the five-
minute rule, in the order in which they came.
    We have been joined by Mr. Sam Farr from California, who is 
not a member of this committee, but I will ask unanimous 
consent that he be allowed to participate and ask five minutes 
of questions at the end of the members.
    Go ahead and start the clock, Suzanne.
    In my opening statement, I made reference--I think the 
phrase I used was a ``bunch of [expletive] gobbly-gook'' and I 
hope you didn't take offense to that, because I suspect your 
very proud of some of that gobbly-gook, but you know what I 
mean. This is very complex bureaucratese language.
    I want to read a statement that I think is not gobbly-gook 
and I am going to quote this, ``The cultural barriers between 
the military, Department of State and other civilian agencies 
seem more striking than those between the United States and 
Iraqis, to me. We say the right things about breaking out of 
stovepipes, but our comfort level tends to put us right back in 
the mindset, language and ways of doing business.''
    That is from a civilian employee in Iraq right now, as we 
are talking, multiple tours, has kids back home, working for a 
U.S. Government agency, trying to train PRT members to go out, 
and that is her perception of where we are at today, that he 
cultural barriers between agencies are more striking to her 
than between her and her Iraqis.
    Now, that seems quite an indictment of what all of us are 
about today.
    What I was struck, Ambassador Herbst, about your statement, 
aside from, I guess, the complexity of the task that you have, 
is the timeframes. At one point in your written statement, you 
say that there will be two to three years. In another 
statement, you say that it may be as long as ten years before 
we have the kind of setup that you think will help the folks 
that are dealing on the ground with the stovepipes.
    Talk about the timeframe on this. Where do you see this 
going in terms of a timeframe where we will have the kind of 
structure that will provide the kind of support from here in 
Washington that my friend right now perceives has such striking 
cultural barriers with other agencies of the United States 
government?
    Ambassador Herbst. I would like to start by noting that 
while we were--and from the very beginning, S/CRS has worked 
very closely with the military and I think that we in S/CRS are 
at the forefront of change in the State Department to prepare 
for the complex new world of destabilized countries.
    That includes, that preparation includes coming to 
understand the military's culture and adapting the best of the 
military culture which fits into this new world for the State 
Department.
    So we have, I think it is safe to say, the best planning 
capability right now that exists in the Department of State, 
because we have learned a great deal from our friends in the 
military, although we have a long way to go to be able to plan 
with the level of nuance that they plan. That is coming.
    As to your specific question on timelines, we right now 
have an approved interagency management system that is ready 
for use. So in that sense, ensuring a unified approach, 
ensuring a whole of government approach to a crisis is ready.
    What we don't have today is the civilian response 
capability that can be used to man that interagency system in a 
large crisis and to put people on the ground in large numbers.
    For us to get that, we need to have both authorizing 
legislation and appropriations.
    In the 2007 Iraq-Afghan supplemental that was passed on the 
springtime, up to $50 million was set aside to create a 500-
person civilian reserve corps. That was a large definite 
direction of creating the civilian response capability.
    But in order to get access to that money and to begin 
building this corps, we need to have authorizing legislation.
    Dr. Snyder. But what you are saying there, you are coming 
across as if the problem you have is staffing only. That is not 
the problem and the greater challenge is a structure of 
planning and coordination, is it not? That is what I am hearing 
from my friend here in Baghdad today.
    She is not saying, ``And by the way, we are short on 
staff.'' What she is saying is there are cultural barriers 
between agencies that are not being broken down. That is not a 
manpower problem.
    I will accept that we are all in this together. I said that 
at the outset, but I am more concerned about this interagency 
structure for planning and where that is going to go and your 
timeline, where you say we will have something, you are 
hoping--your exact words, ``I have no doubt the U.S. Government 
will have this capability in the next ten years.''
    We have been in this war a long time. We have been in 
Afghanistan for five years and we need to have a sense, I 
think, of trying to expedite this in a way so that our brave 
men and women in the civilian capacity in Iraq will have the 
kind of support they need, and I don't think it is just 
manpower.
    Ambassador Herbst. I agree completely and that is why I 
have said we have two tasks. One is to organize effectively. 
The other is to have civilians who could go out to the field 
with the proper training, the proper skills, the proper 
equipment.
    We are at the point where we have a system that can be used 
and this system is the command--or can be, should be the 
command and control for reconstruction and stabilization 
operations.
    This system is the key to breaking down these cultural 
differences between the agencies. My office sits in the State 
Department, but my office is very much interagency project. I 
have people on detail from other agencies.
    As I said at the start of my answer, we have been working 
very closely, for example, with the Pentagon to develop the 
planning capabilities that will suit us for these operations.
    We see the interagency management system when it is in 
action as completely an interagency structure. It is not a 
State Department structure. And our plans are for people in 
this active response corps, the standby response corps and the 
civilian reserve corps, to train together, to use the same 
tools, to operate as a single unit, but bringing into this 
single unit the specialized skills associated with different 
agencies of the Federal Government.
    Dr. Snyder. Suzanne got frisky with the clock here and the 
light went outs, but my time is up. I will want to hear GAO's 
response to that, but we will do that another time or the 
opportunity will probably come along with other members.
    Mr. Akin, for five minutes.
    Mr. Akin. It is a little bit tricky. We understand, in an 
overall sense, the problems of trying to create this jointness. 
Exactly how the structures work is not easy, because some of us 
aren't even that familiar with the differences between State 
and DOD and other different things that have to come together.
    But ultimately, I think what I heard you saying, 
Ambassador, is that what you are starting with, that when you 
go into a specific country, you are putting a team together 
there that has the responsibility of dealing with that 
particular situation. Is that correct?
    Ambassador Herbst. That is right.
    Mr. Akin. And that team is at what level? Is that at the 
top level in terms of planning our operations in that country?
    Ambassador Herbst. The way it would work is you would 
develop the plan back in Washington through the secretariat to 
the county reconstruction and stabilization group and that 
plan--if we already have people in the country in crisis, we 
would be getting information from them, recommendations from 
them that would be factored into the plan, but the plan would 
be built in Washington.
    The people who go into the field would have the 
responsibility of implementing that plan and, again, the people 
going into the field would represent all agencies which have 
skills that could be used properly in the country in crisis.
    Mr. Akin. So in other words, we develop plans for various 
countries here ahead of time and then we put those plans into 
place by putting personnel into the field.
    Ambassador Herbst. That is the ideal situation. That is 
what we are aiming toward.
    Mr. Akin. Now, first of all, right at that point, in the 
process of developing those plans, is there a lot of pushing 
and pulling as to what those plans should be or sort of the 
philosophy of them or the over-the-top level of management, 
what we are trying to accomplish? Is there a lot of 
disagreement there or does that tend--is that something that 
you have an organization that people can work together and 
actually come up with something practical?
    Ambassador Herbst. We have done planning in a few instances 
and in those planning processes, we have generally found 
clearly different points of view, but a recognition of the 
goals that we are seeking to achieve and a recognition that 
this is a common enterprise.
    Mr. Akin. Okay. So in other words, what you are saying is 
let us say we turn the clock back and it is 2000 and we may be 
going into Iraq. We haven't gone in there yet.
    What you are saying is you start with a plan for the 
country to begin with.
    Ambassador Herbst. Right.
    Mr. Akin. Okay. And that plan is going to be developed by--
overall, it is under the auspices of State. Is that correct?
    Ambassador Herbst. It would be under the auspices of a 
secretariat which we would share, but this is controlled by the 
interagency, ultimately under the NSC.
    Mr. Akin. Okay. So that is how it starts. Then you have 
people that go into the country. Let us say we have gone into 
Iraq and that the war has progressed and all.
    Then you have people that go into the country that are 
directly executing this plan.
    Ambassador Herbst. That is correct.
    Mr. Akin. And DOD is in the loop and they know what the 
plan is.
    Ambassador Herbst. DOD is part of the secretariat that 
writes the plan. We also have, as I mentioned before, this 
integration planning cell that is an interagency group that 
would deploy to the command headquarters of our military to 
ensure that civilian and military planning is completely linked 
up.
    Mr. Akin. Because one of the things that we are dealing 
with here, we have been looking at, in a sense, a lower level. 
We have been looking at the reconstruction teams. That is where 
the rubber is on the road.
    But we are trying to project backwards now and to say, 
okay, now, as you move up the line and you are planning, that 
gives you the mission for the reconstruction team, because they 
are executing the plan.
    In a sense, that team that is going into the country is 
sort of a high level reconstruction team of itself, is it not?
    Ambassador Herbst. Correct.
    Mr. Akin. Okay. I think that is at least, again, a concept 
of what you are trying to do.
    Thank you, Mr. Chairman. I will pass on the rest of my 
time.
    Dr. Snyder. Mrs. Davis, for five minutes.
    Ms. Davis of California. Thank you, Mr. Chairman. I 
appreciate you all being here.
    Quite a few of us have been sort of grappling with some of 
the concepts, and so I really appreciate that there is 
something at least down on paper to respond to now.
    I want to thank Mr. Farr, as well, and I am interested in 
how you see at least the legislation that has been drawn up, 
that has been conceptualized, and where you see it really 
responding to the needs, and where do you think, in many ways, 
it is perhaps off base some way in terms of the reality.
    Ambassador Herbst. You have House 1084, which Congressman 
Farr introduced, and you have Senate legislation, 613, 
introduced by Senators Lugar and Biden, and we think these 
pieces of legislation are very similar. They present the main 
elements of what is necessary and if they were approved, they 
would enable us to get cracking.
    We are already working, but we need legislation to continue 
and speed up our work.
    Ms. Davis of California. Are you familiar enough to respond 
in terms of what you think are--are the bones there that are 
appropriate, but in the implementation, what problems?
    Mr. Christoff. Well, what we are going to probably 
recommend next week in our report is that there certainly is a 
need for having these civilian corps, no doubt about it, but I 
want to know what I am getting for the $50 million, such that I 
would want to know more detail than what is being provided and 
the costs, the annual costs.
    I think there are still concerns about how much this 2,000-
person civilian reserve corps is going to cost, the startup 
cost, the annual cost, according to what it is going to be used 
for. I want to know how you are going to define stability 
operations.
    So I don't disagree with the concept, but I just want to 
know a little bit more before the Congress approves it. And in 
doing so and providing that authorization for these civilian 
corps, I think you should ask State to provide you with more 
details.
    Ms. Davis of California. Ms. Ward.
    Ms. Ward. The Defense Department strongly supports the 
legislation that would authorize S/CRS to get moving on the 
civilian response corps. We believe this is a vital capability 
and that it will create the civilian partners that our military 
folks need on the ground.
    So we are very supportive of that legislation.
    Ms. Davis of California. I noted in prior testimony people 
had suggested getting volunteers is not going to be an issue, 
that people are going to be interested in doing that.
    But I would wonder a little bit about that, as well. Could 
you respond more how we would go about that in the country and 
do you envision--believe that in order to have the kind of 
leadership that we see in the military command and control, 
however you want to describe it, that you would need to have 
perhaps a more massive training?
    This isn't something that takes place over six weeks, that 
all of a sudden people get how to do that. I am interested more 
in how you really are developing this kind of civilian corps 
and where you think primarily it would come from and how early 
in education and training we might reach to really do this in a 
way that we would all look back 20 years from now and say, yes, 
this is the way to do it.
    Ambassador Herbst. First of all, regarding recruiting, 
right now, the appropriations that were made in the spring was 
for a 500-person civilian reserve corps, not a very large 
capability, but a substantial one, significant one, 
nonetheless.
    We have had literally scores of phone calls, e-mails and 
such from interested civilians after the President referred to 
a civilian reserve corps in the ``State of the Union'' speech 
in January.
    I spend a lot of time talking to professional organizations 
about what we are trying to do and there is always a great deal 
of interest in the crowd.
    I believe if we are recruiting a corps of 500, we will be 
able, under the legislation that has been proposed, to find 
skilled people who we need.
    Now, as for the training, you need to look at what we have 
proposed as a system as a whole and the active response corps, 
which would be the inner corps of the civilian response 
capability, will be made up of people whose full-time job it is 
to deploy and to prepare for deployment.
    So these folks, if there is no crisis where they need to 
be, would be training constantly and they would provide the 
backbone of the system which others would join.
    You are certainly right that it would be better, all things 
considered, if we gave both our standby response corps members, 
as well as our civilian reserve corps members more than a few 
weeks of training a year.
    But you take intelligent people who are committed to the 
cause, you train them for a few weeks a year, you have a Web 
site and other ways by which, when they are not training or not 
deployed, they can get up to speed. You provide them leadership 
via both this active response corps, as well as others in the 
government who are going to be involved in a operation, and I 
think they will be able to perform admirably in crisis.
    That is the basic concept.
    Ms. Davis of California. One of the things, having been in 
San Diego, obviously, in some ways, we do have this and my 
friend, Mr. Farr, reminds me we actually saw a quite 
spontaneous--numbers far--hundreds of people coming forward who 
thought to themselves, ``Gee, I am a tour guide. I know how to 
organize people. Maybe I could help,'' and they just came 
pouring into Qualcomm Stadium.
    So I do think there is a local response, as well, that they 
were building on and I think it--I guess what is difficult with 
all this is that in every community, we probably could see this 
and yet wonder why it has taken us so long to somehow bring 
this about.
    So can you go to the main problems in terms of the culture 
that kept us from starting to move this a lot sooner and how we 
overcome that? Because I think if you talk to people in the 
State Department, they feel as if they were really the poor 
stepchild in this.
    Number one, they weren't asked whether we have the capacity 
even to begin this kind of an operation at the beginning. They 
certainly didn't have the skills or the breadth of expertise 
that was required.
    So have we overcome that? What steps should we take to do 
that? Even though we have got all this on paper, which sounds 
good, but I am still concerned about getting there.
    Ambassador Herbst. I think you are right. The key to this 
is to turn a concept into a reality. You are right that we have 
seen the problem at least for years and we are where we are 
today. We would like to be farther along.
    I think the same could be said about the way our military 
operated in the 1970's and before, with a recognition that you 
had to have the different arms of the military operating 
jointly together, but it took a substantial push, including 
legislation in the mid 1980's, Goldwater-Nichols, to force a 
transformation.
    As Congressman Snyder mentioned, citing his source from 
Iraq, you have different cultures and you have to break that 
culture. Our organization, S/CRS, is at the forefront of 
breaking that culture within the State Department, forcing 
within the State Department, and also within the interagency.
    Again, we haven't moved as fast as we would like, but we 
have picked up speed over the past eight or nine months and we 
now need to continue that process.
    Ms. Davis of California. Thank you.
    Mr. Christoff, in thinking--you obviously took a really 
hard look at this over time and you have said you have got to 
keep asking those specific questions.
    Some of those specific questions I think really amount to 
how do you begin to develop the real framework for being able 
to determine the extent to which we are being successful and 
what kind of standards, because in many ways, you have said, 
well, each one is different, each PRT is going to have to be 
different, not just each country, of course, is different, but 
each community, each village.
    Do you feel that we are beginning to do that? And just one 
example of where you think we could look back in a few years 
and determine the extent to which that was a good measure, a 
good metric, if you will, a good tool.
    Mr. Christoff. Well, I think the concepts are good concepts 
of having this interagency framework. I think the concepts are 
good concepts in having us building a reserve corps.
    But once again, I go back to my comments about the costs. I 
need more information about the costs.
    Your point about training, I think it is not thought out 
well in how we are going to train these civilian and reserve 
corps and the standby response corps. We are talking about 
providing training for up to 4,000 people by fiscal year 2009.
    I am not certain where that training is going to come from, 
how long it is going to be. The Canadians and the Germans have 
comparable reserve corps and our counterparts over at the 
Congressional Research Service had forum to discuss lessons 
learned from their experiences and one of their most important 
lessons learned was that you have to thoroughly vet and 
identify skills of the individuals that are volunteering to 
make sure that they fit with the needs of the mission that you 
are going to send them to.
    And you have to make sure that you provide them real world 
training, not online training, not a week of training, but 
training that would help them work best with oftentimes 
military advisors and military personnel that they might be 
working with hand-in-hand.
    Ms. Davis of California. Mr. Chairman, I suspect my time is 
gone.
    Dr. Snyder. You have benefited from psychological 
malfunction.
    Ms. Davis of California. I see this green light, but I know 
how many questions I could ask.
    Thank you, Mr. Chairman. I will yield.
    Dr. Snyder. The co-head of the working group on interagency 
reform can have all the time she needs. We, frankly, can't get 
the green light off.
    Mr. Bartlett, for five minutes. And, Roscoe, you may hear a 
gentle tapping at the end of five minutes instead of a red 
light.
    Mr. Bartlett. Because the light is not working.
    Dr. Snyder. The light works fine, it is just there is no 
meaning behind it.
    Mr. Bartlett. Thank you very much for your testimony.
    Clearly, we are pretty much plowing new ground in this 
reconstruction effort. This is not what we have done in the 
past. We have been focusing primarily in this hearing on 
organizing ourselves to do that and that clearly is a bit 
challenge.
    But I am also concerned about the challenge of deciding 
what we want to do. I have visited, in my 15 years in the 
Congress, a lot of foreign countries and generally we are met 
at the bottom of the steps coming from the airplane with the 
State Department and, depending on the country, you may be 
whisked off to a secure location where we are briefed.
    And being as scientist, I often reflected that the State 
Department attitude toward the country we were visiting was 
very much like the attitude of the sociologist, the animal 
sociologist who was watching a troop of chimpanzees.
    And it is understandable that we could have that kind of an 
attitude. We are one person out of 22 in the world and we have 
a force of all the good things in the world. We have been 
enormously successful.
    And it is easy to understand how you would conclude that a 
country that has a system of government and a culture different 
from ours has to be somewhat inferior to ours and I think we 
fail to remember that we had several hundred years of cultural 
history from the Magna Carta before we decided to strike out on 
our own in this country.
    So I am concerned that what we want to do may not be 
consistent with the realities of the country that we are trying 
to reconstruct.
    Let me give you an example. When it comes to agriculture, 
we have been really successful there. We now have two percent 
of our people which feed all of us and have a lot of stuff to 
export, but that may not be the model that, in today's world, 
should be pursued in other places.
    We brag that we have the most efficient agriculture in the 
world. That is because one man sitting on a 150-horsepower 
tractor can produce enough food to feed himself and 50 other 
people and some to spare to ship overseas.
    But in an energy deficient world, that may not be the 
criteria we ought to be looking at. As a matter of fact, in 
terms of BTUs in and calories out, we probably have the least 
efficient agriculture in the world. But when oil was $10 a 
barrel, that hardly with mattered. With oil at $92 a barrel, 
that may matter a great deal.
    Also, there may not be jobs for people and when they are 
moving off the land to the city and turning over their land 
to--and we kind of see the John Deere tractor and the big 
combines as the way agriculture ought to be going and, for much 
of the world, that probably is not the way agriculture ought to 
be going, because it is enormously energy intensive, and with 
the cost of energy and its lack of ready availability in the 
future, that may not be the model we should be following.
    How do we determine what we ought to be doing? Do we have 
people who really understand the cultures that we are going to 
so that we are helping them to develop the kind of a 
government, the kind of a culture, the kind of an economy that 
will be sustainable after we leave, with all the money we are 
pouring in?
    How do we do that?
    Ms. St. Laurent. I don't have a perfect answer for that, 
but I think that your comments illustrate why an interagency 
approach is needed, because I think if each agency devised its 
own strategy, it may not reflect consideration of all the 
factors that need to be weighed in coming up with what the U.S. 
approach should be.
    For example, the military has a lot of resources at its 
disposal and engineering battalions and other units that can 
construct things and build things and one of the things I 
think, although they have those capacities, that needs to be 
thought through is what would be the benefit or the outcome.
    What outcome would those kinds of construction projects 
achieve? And I think that is where input from AID and the State 
Department and Agriculture, if it is an agriculture-related 
project, need to be joined together with military personnel to 
decide what the strategy is.
    The example, for example, of building a school. The 
military can construct a school, but unless enough thought goes 
into developing a comprehensive strategy that provides teachers 
for the school, makes sure that students can attend the 
schools, because they are not working in agricultural fields or 
in factories or otherwise occupied, and ensuring books are 
there and all the other things that go together with achieving 
a goal of improving an educational level within a country have 
to be thought through.
    So I think, again, this idea of an interagency process to 
work out, first, at a national level, what the U.S. strategy 
ought to be and then have mechanisms where you translate that 
into the combatant command, country team level, and then 
further down to tactical capabilities in units like PRTs is 
very important.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Bartlett.
    Mr. Johnson, for five minutes. The nightmare may be over. 
We may have a clock that works.
    Mr. Johnson, for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Ward and Ambassador Herbst, were both of your offices 
involved in the run-up for both Operations Enduring Freedom and 
Iraqi Freedom? In the run-up for those operations, were your 
offices involved?
    Ambassador Herbst. No.
    Ms. Ward. Actually, at that time, sir, my office didn't 
exist and my office actually recently had been created in its 
current form as of December of this year. There was a stability 
operations before.
    To my knowledge, they were not involved in the planning and 
their task and purpose was a little different from what we do.
    One of the things we are trying to do is look at those 
operations and derive the lessons from them as we make 
prescriptions about capabilities needed in our military forces 
in the future. But we weren't involved in the initial planning 
process.
    Mr. Johnson. So you are, both offices, now involved in the 
provisional reconstruction teams now operating in Iraq and 
Afghanistan.
    Ms. Ward. Sir, on my wide, I do not have operational 
oversight of those. That is conducted by the regional offices, 
the Iraq and Afghanistan offices in OSD policy. But we are 
staying abreast of events in the PRTs and how they are 
organized and how it is going, again, for the lessons learned 
process, so that we can be thinking about civil-military teams 
in the future and make sure we understand what worked and what 
didn't work, as well.
    Ambassador Herbst. Our office does not have responsibility 
for the PRTs, but we are right now engaged in Afghanistan at 
the request of General Rodriguez and we have helped a couple of 
the PRTs with their planning process and we are now applying 
that to the rest of the PRTs in Afghanistan.
    Mr. Johnson. Is that a formal structure or kind of an 
informal process that is taking place within both of your 
offices?
    Ambassador Herbst. Well, we were, you might say, formally 
asked to take on this job that we have taken on and we have 
several people out in the field doing it. But, again, we are 
not overall responsible for PRTs in Afghanistan.
    Ms. Ward. More informal on our side, sir, but we believe we 
have expertise to bring to the question, the stability 
operations capabilities center of excellence, if you will, in 
the Pentagon.
    So we believe we have something to add, but mostly we are 
trying to make sure we integrate the lessons from those 
situations.
    Mr. Johnson. It would seem that these two opportunities are 
great to learn from the activities in Afghanistan and Iraq with 
respect to future civilian reserve corps operations.
    Is there any particular reason why the integration of your 
offices with these efforts in Afghanistan and Iraq by the PRTs 
are not more formalized?
    Ambassador Herbst. Well, S/CRS was created in June of 2004, 
when both Iraq and Afghanistan had been going on for some time.
    And the resources of our office are relatively modest and 
the resources going into both Iraq and Afghanistan are 
substantial. And the decision was taken at the time by then 
Secretary Powell and my predecessor that we would not be 
engaged in a major way in either place.
    That has pretty much been true since then, although, as Ms. 
Ward said, we have been in touch with people coming out of both 
places for lessons learned purposes and my office is staffed 
with a lot of folks who had served in those PRTs and have come 
to us precisely because they want to devise a better way to do 
this.
    Ms. Ward. On that, sir, I would say that the organizational 
arrangements for managing those efforts sort of grew up before 
my office existed.
    At this point, it might merely add a bureaucratic layer, 
but what we try to do is contribute the functional expertise 
and assist in those efforts where we can.
    Mr. Johnson. Any response from GAO?
    Mr. Christoff. I would agree with your premise that there 
is a lot that one can take from the experiences in the PRTs and 
to bring up to the development of the interagency process.
    The mere fact that you--the military had to provide a lot 
of the personnel for the initial staffing of the PRTs and we 
are still going through a three-phase process this year to try 
to replace some of the military personnel that were temporarily 
put in place in the PRTs with civilian personnel.
    So I think the lessons learned from PRTs can bear on how we 
develop this interagency process and how we think through from 
the very beginning the makeup of these corps at the lowest 
levels within a country and who is going to be responsible for 
what.
    Ms. St. Laurent. And I would add that I also agree that 
that issue is very important and the lessons from the various 
models of PRTs need to be looked at very carefully.
    The military has a process that it goes through in 
designing organizations and units and developing capabilities. 
Their shorthand is DOT and OPF, but I think it is reflective of 
the kinds of things that need to be looked at for the future.
    What kind of doctrine for or what are the missions of these 
organizations, should they be in the future, if PRTs or 
something similar are going to be used? ``O'' stands for 
organization. How should they be organized? What are the 
command and control relationships? Who do they report to? What 
kind of training do they need? What kind of material and 
resources and do they need? What kind of personnel, both in 
terms of skill levels, where they come from, the mix of 
contractor versus DOD versus civilian personnel, and logistics 
support? What is the concept for providing security force 
protection and all other kinds of logistics support?
    But I think that kind of a framework would be very useful 
to think about in analyzing the various models that have been 
used to date and then where we go for the future.
    Dr. Snyder. Dr. Gingrey, for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you. And thank all of our 
witnesses.
    Some of the testimony and the questions make me reflect 
back on Hurricane Katrina, when lots of people wanted to 
volunteer. They tried to call and find out where to go and 
sometimes they got in automobiles and tried to drive down to 
the Gulf Coast and some got there, some didn't.
    You had a lot of people wanting to help, I am sure. As Ms. 
Davis was just pointing out, in San Diego, the same situation 
existed with that natural disaster. And a lot of times, it just 
creates mass confusion.
    I know after Hurricane Katrina, there was a lot of thought 
put into, but I don't know if any action was ever taken in 
regard to developing a civilian reserve corps of physicians, 
where you had a database and you not only made sure that they 
were appropriate to the mission, but that they were vetted very 
carefully. I think that is something that needs to be done.
    But the bottom line is a lot of people in these emergency 
situations need to stay home, stay on their job, send money and 
pray. They don't need to show up at the theater of operation.
    But I would hope, in regard to the civilian reserve corps, 
that you would want to train some physicians. I think all 
professions were mentioned except maybe health care, but you 
would probably want to have some of them, as well.
    And maybe it is the active reserve corps that is full-time 
responders, if you will, civilian responders should be the ones 
that do the training of the civilian reserve corps, and that 
training, of course, should be done on a periodic and timely 
basis, because you may have 500 that get trained initially and 
then they don't get called for 5 years.
    So you have to make sure you continue to have that group 
trained and up-to-date.
    Now, I do have a question and I am getting to that and this 
is probably more for our GAO witnesses.
    Given Directive 3000.05, equate stabilization operations 
with combat operations, how satisfied are you that DOD really 
accepts the critical role that effective interagency 
coordination and planning must play for success?
    And more specifically, as I suspect, the answer would be 
yes, do you see resistance akin to the services' initial 
rejection of Goldwater-Nichols reforms?
    I think that is a big, big issue, a big area of concern 
here and I would like to know your opinion on that.
    Ms. St. Laurent. I would respond by saying that I think 
DOD's intent is in the right place. I think it was a very 
significant policy to say that stability operations equate to 
or are as important as combat operations.
    And I think many folks that we have talked with in the 
services and the combatant commands recognize the need to place 
greater emphasis on stability operations and reconstruction 
activities and work more closely with civilian partners.
    But I think, again, the devil is in the details in terms of 
how the military moves forward to do that and it may require 
very, very significant shifts in the processes that they have 
had for a long time.
    For example, the military combatant commanders typically 
produce a very wide range of plans, theater security 
cooperation plans, contingency plans that are very, very 
detailed, others that are more concept oriented, and they have 
a lot of resources to be able to do that.
    They have established coordination groups at each of the 
combatant commands where they encourage interagency 
representatives to attend and work with them. However, their 
model is that they want full-time agency representatives and 
that may not always be possible for some of the civilian 
agencies that don't have similar capacity as DOD.
    So I think DOD is going to have to work with State, AID, 
Treasury and other Federal agencies in thinking through if 
there is a need to get more interagency input into the 
development of military plans, how do we go about doing that 
and understanding that other organizations----
    Dr. Gingrey. Let me interrupt you just----
    Ms. St. Laurent [continuing]. Don't have the same 
structure.
    Dr. Gingrey. Ms. St. Laurent, excuse me, I apologize, but 
my time is running out. I did want to ask this point.
    Do you think that our office corps are getting sufficient 
training at command and general staff college or war college 
level or wherever in regard to preparing them and their mindset 
for this climate of interagency cooperation that we seem to be 
going to, a Goldwater-Nichols type approach to the interagency? 
Either one of you.
    Ms. St. Laurent. I think it is changing. I think that 
military is moving in that direction. I have seen materials in 
terms of how DOD is trying to address some of the curriculum at 
the senior schools and a variety of other schools throughout 
DOD.
    But it is taking time to develop those courses and get 
those initiatives in place, but there are already courses that 
have been put in place. It is a matter of expanding on them and 
moving this throughout the entire department.
    Dr. Gingrey. Mr. Chairman, I see my time has expired. On a 
second round, maybe Ambassador Herbst and Ms. Ward would like 
to comment or if you will permit it----
    Dr. Snyder. If anybody has any comments, go ahead now.
    Ms. Ward. I would like to comment on a couple of those, 
please.
    The analogy to the resistance to Goldwater-Nichols I think, 
in this case, is not apt. In my experience, the military is 
very interested in getting help from our interagency partners.
    I would say, across the board, there is enthusiasm about 
integrating with the interagency and helping to build their 
capabilities so that they can take on some of the tasks that 
the military may have been doing, but maybe is not their core 
function.
    So I would say that they welcome the integration a lot and 
it still needs to be worked out, but in terms of their 
disposition and their attitude toward that integration, I would 
say it is very positive, certainly in my experience.
    As far as the training of our officers, I was recently at 
Fort Leavenworth and talking to them about that training and I 
think Ms. St. Laurent is right. We do see the training and 
education of our officer corps changing substantially now and 
some of these--many of these officers actually have personal 
experience on the ground.
    They are coming from Iraq and Afghanistan and they have a 
personal understanding of their interagency colleagues that 
they didn't have in times past and they are also learning about 
their interagency colleagues and trying to break down those 
cultural barriers significantly.
    There is a lot of steps in that direction. More work to do, 
but I think we are going in the right direction on that.
    Ambassador Herbst. I would agree with that. My staff spends 
a lot of time at the various combatant commands and the various 
military war colleges and there is a great deal of interest and 
enthusiasm even for what we are doing.
    We have overseen training, as well, for people going out to 
PRTs and a lot of officers have taken that and, again, we see 
the enthusiasm for what we are doing. So I think this is moving 
in the right direction.
    I would just like to add, Congressman, that if I did not 
mention public health workers when I was talking about the 
people in our corps, that was my oversight. They are definitely 
part of the corps. We have already sent people out with those 
skills.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Dr. Snyder. Dr. Gingrey and Dr. Snyder appreciate that 
acknowledgement, Mr. Herbst.
    Mr. Jones, for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much.
    Mr. Christoff, I really enjoyed watching your body 
language, particularly as State was speaking and DOD.
    Your comment about concept and reality, concept and 
reality, and that seems not just from you, but from Ms. St. 
Laurent, as well. What is the government--I have been here for 
14 years and any time a program is established, it doesn't seem 
like it ever goes away.
    And I certainly am not criticizing the concept. I think the 
PRTs have worked extremely well. I think we all, as a nation, 
have made mistakes and, first of all, shouldn't have gone in, I 
understand that.
    But the point is that it seems like you are saying at GAO 
that we need to slow down a little bit. We need to make sure 
that if this program is going to be in place and this program 
is going to be successful, there needs to be more work done 
before the $50 million is allocated, because the $50 million 
will become $100 million and it will continue to grow and 
expand.
    This nation is in deep, deep financial trouble. We are 
borrowing money from foreign governments right now to fight the 
war in Iraq. We are borrowing moneys from foreign governments 
right now to pay the interest on the public debt.
    And I hope that if this program is worthy, and I don't 
question your positions at all, but based on what--I have great 
respect for GAO as a whole. I listen to David Walker on a 
regular basis. I have tried to read, I have tried to understand 
what is happening in this country from the standpoint of 
expanding government, that the poor taxpayer can't even pay 
their grocery bills back home because we are getting so large 
and expansive.
    My question to GAO, what would be your suggestions to this 
committee or to any committee--and let us take this concept as 
the purpose of my question.
    What would you say to Congress? How can we have better 
checks and balances before--and I know I am not on 
appropriations, I am not being critical of appropriations, but 
this is a great hearing, Mr. Chairman. This has been a great 
Oversight Committee that we never had until a year ago.
    But the point is that if we didn't have this oversight, 
many of us, unless we were on the committees of jurisdiction, 
we would not even know that this concept is trying to be 
developed into a reality.
    What should we be doing to make sure, before the $50 
million is allocated, that this program is ready to get on the 
ground and start to be effective?
    Mr. Christoff. If this were the title of a GAO report, it 
would say ``Concepts are good, more information needed.'' And I 
think that is what we have been trying to say and that I think 
you agree with.
    We agree that you need to have better interagency, you need 
to have this framework. You want to have civilians that can 
make a contribution and that can deploy rapidly to an 
international crisis.
    But when we look at the framework, and, Dr. Snyder, you 
read a lot of the details and you saw a jargon, you saw a lot 
of what you characterized as gobbly-gook. It is hard to get 
through a lot of the details of this interagency framework.
    And so our first recommendation is that you clearly define 
the roles and responsibilities of S/CRS, because there is 
disagreement within State. There are turf battles within State 
as to whether or not S/CRS should have the lead or the 
traditional regional bureaus.
    So, one, you have got to clarify the roles of this 
important office. And, second, this concept remains a concept. 
It is a framework. Parts of have been tested, but the whole 
framework has not been implemented and you need to implement 
the whole framework for stability operations to see if it is a 
useful interagency process.
    For the civilian corps, again, more information. How much 
is it going to cost beyond the initial seed money of $50 
million? What operations would this corps be tasked to do? And 
you want to understand the complete framework of the civilian 
corps before you authorize it.
    You have appropriated for it already, the Congress has, but 
it hasn't been authorized yet.
    Mr. Jones. Mr. Chairman, I would hope, because I know my 
time is just about over, I would hope that this committee would 
write the chairman of the committee of jurisdiction and just 
say that we have concerns based on testimony before we move 
forward with appropriations, because I don't know where the 
money is coming from, to be honest with you.
    I yield back.
    Dr. Snyder. Mr. Davis, for five minutes.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    Just listening to this debate and having come from the 
consulting world, dealing with process organization and 
following this interagency issue is probably our number one 
priority related to national security.
    And my office, Dr. Snyder, Mrs. Davis and I have worked 
very closely on this. I am concerned that the establishment of 
the civilian reserve corps simply is responding to a symptom as 
opposed to the root cause.
    And not to denigrate in any way the issue of having lots of 
professional resources, but more to the point, you have those 
folks, kind of like a political campaign, where you are going 
to bring a couple of hundred volunteers in, you have to have an 
infrastructure and a process within which they are going to 
function to have any level of productivity and not absorb 
additional costs.
    And building off of Walter's comments on establishing this 
process, I would ask probably a simpler question, and, 
particularly, I am going to confess that Congress is a big 
piece of the problem.
    The Armed Services Committee has invested much of its time 
in minutia at a technical and a tactical level as opposed to 
strategy, which I think is important. The Foreign Affairs 
Committee has done the same thing, focusing on a variety of 
resolutions and programs, but not having an authorization in 
over a decade.
    And here is my question, at probably a crude level. Why not 
simply reform that process that the military is crying out for? 
I have friends I served with in the military who are running 
entrepreneurial startup programs, ag programs, medical 
programs, educational programs. None of them have run a 
business, run a farm or been a school teacher or worked as a 
professional educator.
    And certainly I commend our military and their ability to 
stand up for that, but fundamental problems. The CENTCOMM area 
of operations has four State Department bureaus overlapping it, 
which immediately is an impediment to efficiency in 
organization.
    There is cost and overhead that is incurred just because of 
that inefficiency and rather than say, ``Well, we are going to 
hire 500 more people,'' why don't we say, ``We can fix the 
process and improve the productivity and the effectiveness of 
our frontline folks?''
    Now, the turf battle that you talk about in State or in 
Defense or here on Capitol Hill, too, because I watched staff 
earlier this year actually kill an interagency reform because 
there was concern about offending the jurisdiction of the 
Foreign Affairs Committee.
    My question is, why wouldn't we want to coordinate more 
closely with NGOs, for example, in certain areas that have that 
regional and that cultural ability? They can do things much 
more quickly.
    But at the end of the day, here is my question. Why not 
just simply reform the agency process first so you have a 
workable process and, second of all, what specific small steps 
in legislation would you all ask for that would allow closer 
coordination, more flexibility on the budget, for example, in 
an area so that resources could be passed to the appropriate 
agency?
    Ambassador Herbst. There is no question that you need to 
have an effective interagency structure to use the resources we 
are asking for and we believe that the interagency management 
system does provide that structure.
    Mr. Davis of Kentucky. I disagree with you and I don't 
think we should provide resources until--there have been no 
substantive legislative reforms and that is the thing I am 
getting to.
    We are creating departments, but I am talking to the folks 
out on the front lines who are doing this for a living and when 
you get personalities that can work well together, it is fine. 
But I receive a string of e-mails monthly from the PRT in 
Karbala who is pointing out exactly the opposite of what you 
were talking about here.
    I am not impugning your integrity, but I am saying it is 
not working, because we are wasting a huge amount of money and 
not getting the level of productivity that----
    Ambassador Herbst. Congressman, we are talking about two 
different things. You are referring to the system that is--
rather, you are referring to what is currently underway. What 
is currently underway is not the system that we have created.
    The system we have created has been devised, is being 
tested, but it has not been actually implemented. The idea is 
to use this for the next such operation, hopefully, not an 
operation on that scale. That is the point.
    So when you say it is not working, you are not referring to 
what we are discussing today. You are referring to something 
that exists, but is not being----
    Mr. Davis of Kentucky. Just reclaiming my time. I don't 
disagree with your point in concept, but I come back to the 
issue of treating a symptom.
    This is a look back and saying, ``Oh, what do we need 
different? We need more bodies,'' when----
    Ambassador Herbst. No, that is--excuse me.
    Mr. Davis of Kentucky. That is one piece of it. But here is 
the question, though, at the end of the day.
    What congressional mandated agency reforms do you need, not 
done at an executive directive level, because having watched 
executive directives, where agencies can do what they want to 
do, again, the PRT example of standing up in Iraq with the so-
called surge, it ended up coming back to the military, as a 
close friend of 30 years pointed out what exactly happened, 
because of internal regulations and a lack of authorization for 
the appropriate structure.
    Ambassador Herbst. I would say most national security 
experts who have looked at the current theme see the need to 
create the type of capability that we are describing. There are 
different ways to do that.
    Some people have said, in a sense, what you have just said 
right now. What we need is legislation comparable to Goldwater-
Nichols on the civilian side. That is one way to fix this 
problem.
    But given the efforts within the current Administration, 
within the Bush Administration, given the National Security 
Presidential Directive 44, given all the work we have done over 
the past 18 months to implement that, we are in a position, 
even without legislation, to make the necessary interagency 
changes, the fundamental changes that current international 
circumstances require.
    The resources we are asking for we believe only work within 
the framework of a new system, the system we have described.
    Now, the GAO is correct that it has not been used in an 
actual operation to date. We have used it to do specific things 
in the real world. We have done testing for the overall 
concept. This has to come.
    But the point is we are on the cusp of doing that. As for 
the resources that we would use, $50 million is to create only 
a 500-person civilian reserve corps. That will give us an 
opportunity to test this capability in the real world.
    The GAO said there are no figures for what it would cost to 
maintain a corps. Well, in fact, there are. To maintain a 
civilian reserve corps of 1,000 people would cost $20 million a 
year, of 2,000 people, $30 million a year, of 3,000 people, $42 
million a year.
    Mr. Davis of Kentucky. If I could just reclaim my time.
    Dr. Snyder. Mr. Davis, your time has expired. What we will 
do, we will go to Mr. Farr for five minutes. We have votes. We 
will recess, and then we will come back after that and pursue 
this more.
    We will recognize Mr. Farr for five minutes.
    Mr. Farr. Thank you very much, Mr. Chairman. I want to 
thank the committee for allowing me to sit in on this hearing.
    I think it is the first one I have experienced in all the 
years that I have been here dealing with this issue, and what I 
find in the questioning and answering is that there is a lot 
more going on than you realize, and I really want to compliment 
your committee and the Defense Committee, because, frankly, the 
lead on this post-construction, reconstruction and stability 
has been led by the Department of Defense rather than by State 
Department or USAID and others.
    There was a committee commissioned back many years ago, 
about a dozen members of this House and the Senate sat on, and 
I was asked to sit on it, and out of that came a whole list of 
recommendations, some of which you are still having before you.
    But the IR Committee wouldn't accept them, thought it was a 
great idea, we need to do this, did nothing. The Defense 
Appropriations Committee looked at it and said this is great, 
we have got to get on with it and set up a center in the 
military at the naval postgraduate school in Monterey, where, 
for the last four years, three or four years, this center for 
stabilization and reconstruction has been incredibly valuable 
in what the lessons learned are.
    One, first of all, it is not just State Department and 
military. It is our military and the extended IMET, which is 
about 400 different officers around the world that are studying 
at the naval postgraduate school. Some of them are in this 
course.
    It is U.N., it is NGOs, it is all the actors who go in to a 
country when you need to stabilize. They have never been at the 
table before. They have never had a piece in it.
    They have had several--you would call them war games. They 
just call them games on very specific issues, like emergency 
response in a war zone, with a natural disaster, I mean, throw 
everything on top of it, and working out the protocols that 
would be needed for rescues.
    So I just have one question of the panel. And I know that 
the ambassador has been to the program. I have spoken with him 
there. But I don't know if any of the other members have been.
    Have you visited the center for stabilization at the naval 
postgraduate school?
    Ms. Ward. Sir, I am familiar with it. I have not visited 
yet in my tenure. I haven't visited it.
    Mr. Farr. I think I would recommend that you go out and 
look at it, because some of the concerns that you raise are 
already being addressed there.
    What is essential? What do we need to do? We know that we 
have trained people in the civilian sector, as well as the 
military sector, and we have--once they leave Federal service, 
we have no contact with them.
    I learned this from astronauts. After you are an astronaut 
and you leave NASA, you don't have any astronaut alumni 
program. There is no getting back.
    And what concerned me, I learned a language in another 
country and when we had 9/11, we had no way to look to see how 
many people in this country spoke Arabic. So we started a 
question of let us create registries, let people go online, 
volunteer, say ``I have this language capability, I have this 
expertise, I would like to come in and be called if you need 
me.''
    At least that gives you a starting point of where the 
talent lies. This reserve corps is made up of experts. This 
isn't training new people. These are people that are already 
the linguists. They know the country. They know the politics. 
They know the geography. They know how to get around. They have 
worked in their careers with other groups and other people.
    That you bring these people back in crisis and say, ``All 
right, you all know this stuff. Now, let us go in as an 
organized team to try to help with stabilization and 
reconstruction.''
    That is what is missing. And here is our problem. We have 
created it on our own. In the military, we have no title for 
this kind of work. So even though we offer a master's degree in 
the program, we only have two naval officers, because Admiral 
Mullen has been real keen on it and insisted that we send 
officers out to get this degree. But guess what? After they get 
this master's degree, where do they go to get assignment, 
because the Department of Defense has not yet created 
positions, other than FAOs, to deal with this.
    So in this committee, I think you ought to think about how 
do you create people with this special category.
    Second of all, the State Department has a lot of these 
people, but they have never been authorized to pull all these 
other groups together and that is what this bill that Biden and 
Lugar have in the Senate and Mr. Saxton and I have in this 
House.
    It is essentially to authorize the readiness response corps 
of civilian experts in the fields of judicial, policing and 
finance and it establishes the curriculum for use by the 
Foreign Service Institute, the Center for Stabilization and 
Reconstruction Studies, the National Defense University and the 
United States Army College, and it specifies how you would go 
about recruiting and training these people.
    We need to get that legislation passed so we can get on 
with the next phase.
    And, Mr. Chairman, I really appreciate you allowing me to 
come in and speak with this committee.
    Dr. Snyder. Mr. Farr, we appreciate your very able comments 
and participation.
    What we are going to do, we have about three minutes left 
on the vote. There is going to be three votes, however. We are 
sensitive to your time. I understand Mr. Christoff has an 
afternoon testimony experience coming up and I am sure all of 
you have busy days.
    We would ask, if you can, to wait here for the recess. The 
staff will be available to help you in any way. We will not be 
offended if you decide the best way to organize your day is to 
have lunch sitting in front of you when you come back.
    We do not anticipate probably going much more than 45 
minutes or so when we return, but we will come back.
    We will stand in recess.
    [Recess.]
    Dr. Snyder. We appreciate you all standing by. I don't see 
any peanut butter-and-jelly sandwiches in front of you, so I 
guess you are holding up all right.
    We will go ahead and start this temperamental clock and go 
around once or twice with the members we have remaining.
    Mr. Herbst, I want to ask a little bit about this issue of 
the timing. I don't know if you saw the Monday night football 
game last night, but Brett Favre was Brett Favre once again and 
did the first pass of the overtime, threw an 82-yard touchdown 
pass, but he is the kind of player that puts people in the 
position to win.
    There are no guarantees, but he puts his team in a position 
to win, and it seems like, as you acknowledged in your opening 
statement, the changing nature of war, we have always thought 
before our military wins wars.
    And it may be that we are having to shift--part of the big 
picture is we are going to have to realize maybe our military, 
in certain wars, puts us in a position to win the war, but 
ultimately it is going to be civilians on the ground doing 
political reform and economic development and capacity building 
that actually wins the war.
    By winning the war, we define it having the kind of 
democratic free government in place that is helpful to the 
world and not hostile to the world.
    And so as you have described this today, I didn't realize 
until--I guess it was in response to questions--that you 
actually are setting up a parallel system, parallel to what is 
going on in Iraq and Afghanistan. Now you are going to impact 
on that and you are involved in training and those kinds of 
things. But that is where your timeline is from two to three 
years to ten years.
    You all are entering into this really with no intention 
that, at some point, the system that you are setting up is 
going to replace what is going on in Iraq or Afghanistan.
    Is that an accurate statement?
    Ambassador Herbst. I would say the following, that the 
capabilities we are trying to develop, once we have them, could 
be used in Iraq and Afghanistan. We already have, as I said, 
the interagency system which is ready for use, but we don't 
have the civilians who are able to go out under this system in 
the countries in question.
    But if we had the authorizing legislation and the 
appropriations to create these various capabilities, in theory, 
we would be able to put hundreds of people onto the ground 
within a year and certainly within two years.
    Dr. Snyder. But I am confused. Now you have confused me 
once again. There are people on the ground. They are in the 
numbers now that the President had requested.
    Part of the issue is personnel and we talked about that, 
but the other part of it is structure, a Washington structure 
that permeates out to Iraq or Afghanistan or wherever the field 
is.
    But what you are saying is you are going back to this issue 
that it is like you need authorization for people power, but, 
in fact, it is a structural issue, is it not?
    If you set up the structure that provides for better 
planning, training, coordination, breaks down the stovepipes 
that my friend in Iraq complained about, why can't that move 
in? Why would you not want that to move in with the personnel 
that are in place tomorrow or the next day in Afghanistan and 
Iraq?
    Ambassador Herbst. Okay, I see what you mean. I think the 
answer is that you have--the structure is in place today. 
People are sitting in these positions and the decision has been 
taken that our capability is meant for the future.
    Dr. Snyder. I am sorry. Say that again.
    Ambassador Herbst. The decision was taken at the very start 
when this office was created that we are to address future 
crises and not these.
    Dr. Snyder. Right. I am trying to think of a metaphor, Mr. 
Akin. Mr. Akin has done a lot of great work on this committee, 
from his visits at a time when he had a son in the Marine Corps 
in Iraq and came back early on saying there are some problems 
with the way we are armoring vehicles and he personally saw 
some of the vehicles.
    In a way, what you are saying is we ought to armor the 
Humvees and come up with the MRAP and let us put them in South 
Korea and test them. We are not going to put them in Iraq or 
Afghanistan.
    I don't understand. I didn't realize that what you are 
coming up with is not something intended to impact on what is 
going on in Iraq or Afghanistan, because part of that--no 
wonder the pace is leisurely. There is no pressure to perform. 
There is no pressure to ultimately win the war in Afghanistan 
or win the war in Iraq, coming from what you all are doing.
    Is that a fair statement? I mean, if your mandate is not to 
deal with Iraq or Afghanistan----
    Ambassador Herbst. It is geared to the future, but if we 
develop the human resources, we will put them. But, again, it 
is not the system. It is the way we would plug into the 
existing framework.
    Dr. Snyder. So Mr. Farr's legislation--when the President 
talked about the civilian reserve corps, I think every Member 
of Congress that heard that took that to mean it would try to 
impact on what is going on in Iraq or Afghanistan.
    You agree with that.
    Ambassador Herbst. That is correct.
    Dr. Snyder. But it would be through the structure that is 
going on currently in Iraq or Afghanistan.
    Ambassador Herbst. That is correct.
    Dr. Snyder. Not through the structure that you all are 
devising.
    Mr. Akin, for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    First of all, then what you are saying, Ambassador, is you 
don't have any direct impact at all on what is going on with 
the reconstruction teams right now, other than trying to create 
a model to make them more effective in the future.
    Ambassador Herbst. We are, in fact, engaged in----
    Mr. Akin. It will work for you, though.
    Ambassador Herbst. We have no oversight over PRTs in either 
place. But as I mentioned earlier, we have people in 
Afghanistan right now who have helped two PRTs develop a 
planning model and are going to be doing that for the rest of 
our PRTs, as well, in Afghanistan.
    Mr. Akin. Let me just ask, as I take a look a little bit 
back in my own limited history of being here, I have been here 
seven years, I have seen at least the Iraq situation develop, 
and I take a look at different things that happened and some of 
them--and people talk about, well, we have made a whole lot of 
mistakes in Iraq.
    I don't know that we have made a whole lot, but there were 
certain things that did jump out at me. The first thing is we 
put Sharia law into the Iraq constitution. That seems to me to 
be really a dumb thing to have done, or we allowed them to.
    Now, would your structure help prevent something like that 
from happening?
    Ambassador Herbst. The step you have just described was, I 
would say, a political judgment and the system we are creating 
will likewise be subject to political judgments.
    So I would not say that what we are devising is meant to 
solve the issue you have just described. What it is meant to 
solve is, one, coordination of the civilian side of the U.S. 
Government and, two, the provision of trained, equipped, 
skilled people for mission.
    Mr. Akin. My question is, would the organization that you 
are proposing or that you are theoretically developing, would 
it have the capacity to deal with a decision like whether or 
not we are going to put Sharia law into the Iraqi constitution?
    Ambassador Herbst. Absolutely. The system that we----
    Mr. Akin. Would that system then have a considerable amount 
of input from different people before something like that was 
done?
    Ambassador Herbst. For sure. We would create--we have 
created, I would say, a rational decision-making, information 
flowing process, where all factors would be considered.
    Mr. Akin. It was also pretty much--I assume it was Bremer 
did it. To a degree, we isolated or at least gave the Sunnis 
the impression that they weren't really going to be players in 
the new government or they got that impression.
    Is that the kind of thing that would be discussed and 
vetted in a more coordinated kind of approach?
    Ambassador Herbst. The process we have described, the 
interagency management system would involved substantial 
regional expertise in order to make the right decisions.
    Mr. Akin. And one of the things that we have continuously 
had as a problem over there is the fact that the major 
television station is totally hostile to everything that we 
stand for or are trying to accomplish. And so we are working in 
a complete media--we have no media to counter their media.
    Would that be the kind of thing that your organization also 
would deal with that question?
    Ambassador Herbst. What we have created is designed to 
ensure basic government operations and services in a place 
where none exists, if our national interests are engaged, and 
that would include media, as well as all affairs, all elements 
of government.
    Mr. Akin. And last of all, is the type of structure that 
you are working on, is it, in a sense, parallel to the existing 
State Department structure? So you are creating two separate 
organizations.
    Ambassador Herbst. Secretary Rice talks about 
transformational diplomacy and she is trying to change the 
structures and the culture of the State Department.
    I would say we represent the cutting edge in that process 
and the system we have devised is changing the way the 
department reacts in crises and we have a ways to go.
    Mr. Akin. I think that sounds like a fair answer. I 
appreciate it.
    Thank you for the time, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Akin.
    Mrs. Davis, for five minutes. And we are really watching 
the clock this time, Mrs. Davis. I figured out how it works. 
You have to jiggle this wire.
    Ms. Davis of California. That was really impressive, Mr. 
Chairman. Thank you.
    Getting back to the chairman's comments, I think it really 
is interesting that there are two parallel engagements going on 
here in many ways. And I am trying to find a connection, if 
there is one.
    I have to assume that the work that is going on, 
Ambassador, that you are doing in trying to bring this together 
and think it through over the next few years, essentially, that 
there has got to be some connection to what is happening in 
Iraq and Afghanistan.
    But I am still a little confused by that and what that 
might be, what lessons learned would be applied and back and 
forth.
    What do you----
    Ambassador Herbst. We have created this system to use the 
next time. Of course, it is related to Iraq and Afghanistan. 
One of the reasons or maybe the reason it was set up, the 
office was set up and we have doing this work is because we 
believe we can make adjustments and do it better next time.
    As part of this, we are in touch with people who are in it 
and who have been in both countries. We are doing lessons 
learned. We are factoring that into the system we have devised.
    My office gets lots of especially non-officers who have 
been in both places in PRTs and want to do it better. We are 
developing systems to measure, what we call metrics, systems to 
measure progress and we are also feeding that back to our 
operations in both places, although more so perhaps right now 
in Afghanistan, by having people on the ground helping PRTs 
plan.
    So there is certainly a connection. But the thing to keep 
in mind is while our office has grown from a handful to 80-
plus, that is a tiny number, small resources compared to the 
enormous number of people and funds that we are expending in 
both Afghanistan and Iraq. So there is a problem of scale.
    Ms. Davis of California. The order over the weekend, as I 
understand it, they reported that the State Department would be 
ordering diplomats into the region. I assume that is no longer 
on a voluntary basis.
    How does that impact what you are doing, if at all, and are 
those folks available to do that? Even thinking in the short 
term and the long term, how is that going to affect your 
efforts?
    Ambassador Herbst. Well, my colleague, Harry Thomas, the 
director general, is charged with helping ensure we have the 
right people we need currently in Iraq and Afghanistan and they 
are looking at various ways to do that.
    If they wind up directing assignments, I am not certain 
that has a great impact on my operation. I think I already 
get--S/CRS already gets people who are interested in going to 
the world's less predictable places with all of the problems 
that are involved with that unpredictability and I think what 
you are seeing is as more people in the department are funneled 
to Iraq and Afghanistan, the culture is starting to change and 
some of those, a fair number of those people wind up coming to 
work in S/CRS.
    Ms. Davis of California. I wanted to ask also about just 
the interplay of intelligence in all this and whether the 
culture has changed to the extent that as we begin to do this, 
and I think that my colleague, Roscoe, Mr. Bartlett, asked 
really a good question.
    I mean, what is it that we really want to be doing? Do we 
have a role in essentially this kind of nation building and how 
do we do it and, I would hope, how do we do it differently?
    But that interplay, though, with intelligence and 
information sharing, because sometimes there has been a 
reluctance to do that. I guess it is hypothetical, but would it 
have made a difference?
    If somebody said, ``You know what? You have no idea what 
you are doing here,'' which I think some people in the State 
Department would have liked to have said, if they had been 
asked. How in the thinking does that play a role?
    Ambassador Herbst. Our process includes the intelligence 
community. So decisions that would be made in this would be 
based upon the best information available.
    I agree with you that what Representative Bartlett said is 
very important, that what we are trying to do is inherently 
difficult, but it is also true that we learned on September 11 
that there are areas of the world which are destabilized, which 
represent very dangerous national security threats, and that 
our military is going to be involved in addressing those 
dangers and the military knows that they need the civilian 
component, as Congressman Snyder mentioned, Chairman Snyder 
mentioned, to have a chance of winning.
    Without that, we are not in the game.
    Ms. Davis of California. Right. And I guess just a quick 
follow-up. Do you believe, in your estimation, that we are 
moving from a DOD centric thinking to more agency centric?
    Ambassador Herbst. We are definitely moving to an 
interagency centric thinking and our office, while the State 
Department represents the interagency, and this system, this 
interagency management system is precisely that one that 
involves the entire U.S. Government.
    Dr. Snyder. Mr. Farr, for five minutes.
    Mr. Farr. Thank you, Mr. Chairman.
    My first question I think is for the Department of Defense 
and that is that your directive, and I have copies of it here, 
of 3000.5, it is almost two years. It came out in November of 
2005.
    Why hasn't the department then created the professional 
positions which all of your internal directives and 
coordination have all--it seems to me you have got everything 
in place except what you want these people to do after they get 
trained.
    Ms. Ward. Well, sir, we do have a number of different skill 
identifiers and specialty skills in the military that relate to 
stability operations. I am thinking here--you mentioned FAOs, 
sir, but there are also civil affairs officers. We have----
    Mr. Farr. Excuse me for interrupting. But what I find is 
that--because when I traveled with a lot of young officers and 
they all know about the naval postgraduate school and now that 
they have had in-country experience, this is the kind of thing, 
they see ``This is what I want to do,'' the stability ops and 
things like that.
    But there is no incentive to go get a master's degree in 
doing that, because you still haven't created those sort of, 
for lack of a better expression, the MOS when you come out with 
that training.
    Ms. Ward. At my office, we are constantly looking at 
questions just like you raise. Should there be a specialized 
skill? What would be the career track for these people? How 
would it fit into the rest of the force?
    So it is something that we relook frequently and something 
I intend to look at closely during my tenure. At this point, 
there isn't a specialized stability operations MOS.
    Mr. Farr. Can we create that? I mean, I think that is 
important, because you don't have the high motivation. As you 
know, your ascendancy promotions are going to be based on doing 
a good job with the job you are handling and if you don't have 
that job, you are not going to apply for it.
    Ms. Ward. True, but I think it is also true that you are 
seeing commanders now who have experience on the ground and 
recognize that they need to not only understand major combat 
operations, but they need to understand how they apply non-
kinetic effects on the battlefield.
    So the idea is you actually have a force that can do both 
of those things. They can conduct major combat operations and 
they can conduct stability operations, as well. So what you try 
to do is infuse the education throughout the force so that you 
have that full spectrum capability.
    Mr. Farr. Well, I agree with that, too, but I also think 
you need to be keen on a really good education and you stand up 
in the Navy and Department of Defense, at the naval 
postgraduate school, the only graduate school that the military 
has, for master's and doctorate degrees and you give them to 
our officers and officers around the world, that there you do 
have the center and it seems to me it is logical that that is 
where you start getting a lot more specified.
    I want to ask the ambassador. We have the facilities, we 
have the programs. Do you see the State Department using that 
center more than just for the gaming purposes now? Do you see 
it actually sending State Department folks there to, again, 
maybe get a master's degree or to be part of that study 
program, whether short course or long course?
    Ambassador Herbst. I am not responsible for our--the 
training, you might say, of the foreign service officers in 
general, but it seems to me that this is something that can and 
should be looked at, just as we send--let people go for 
master's programs at other universities. It seems to make sense 
to me.
    Mr. Farr. Well, this is, I think, the one criticism. I am 
keen on what you are all doing and I think we should have done 
it years ago. I, frankly, think that had this all been set up, 
we wouldn't still be in Iraq. We would have been smart about 
how to get in and get out, and we get in and we get stuck, 
because we haven't had this kind of planning before.
    So from the GAO's office, from a cost-effectiveness 
standpoint, this the ounce of prevention that is going to save 
us a lot of money, but I am also surprised because you have all 
got it and why it is so important and we yet haven't created 
these career positions, because this is a new--as you have all 
indicated, it is the interagency and it is probably 
international, as well as interagency, and you are going to 
have to have those skills.
    And I would think those skills are linguistic skills and 
area study skills and knowing--I mean, just think if we had 
non-English speaking people from some other country to respond 
to the fires in California, not even knowing where these roads 
are, where these places are, couldn't communicate with the 
people whose houses are burning down. You would have a real 
mess down there.
    I sit on the Homeland Security Appropriations Committee, 
and what I find is that and what all the experts tell us is 
that if you prepare for a natural disaster, you have prepared 
for a terrorist disaster, because the first responders are 
going to be the same. Maybe the prevention is different, but 
the response is going to be the same.
    It seems to me we would never think of responding to a 
disaster in this country without people being prepared, yet we 
are offering to be responding to war related or war created 
disasters without being prepared. And we get it, but now we 
have got to start professionalizing it, because you are not 
going to have people seeking careers in this area, which is so 
keen right now, if you don't give them a job to do that.
    I would like a response, if there is time, Mr. Chairman. Is 
it misdirected?
    Ms. Ward. There is no doubt that we need to vastly expand 
our language and cultural awareness skills throughout our 
military, and I would argue that a lot of steps have been taken 
in that direction already.
    I mentioned earlier that I was at Leavenworth recently and 
talked to them about education at all levels and the language 
training and cultural awareness training is spreading 
systematically throughout our military.
    So I think we are taking that very seriously, the need for 
us to understand other cultures and have more people who can 
speak more languages more skillfully.
    I think really the question you are getting at is whether 
there should be a special category of people who are trained in 
this particular kind of operation. Right now, we are certainly 
taking steps to spread this type of education throughout our 
force, not just language and culture, but also the principals 
of counterinsurgency and how to be successful in the stability 
operations, and that is going really throughout our force.
    And so I think you are looking at a question of, well, 
should there be a specialty category, a cadre of people who do 
this specifically for a living, and I think that is an 
important question that we are looking at and will continue to 
look. Right now, we do not have that, that is true.
    Dr. Snyder. We will go ahead and start the clock. We will 
go another round here, if you are still with us.
    I want to hear from, I guess, Ms. St. Laurent or either one 
of you, Mr. Christoff, on one of the things that has been said 
here in the last ten minutes or so.
    You have expressed concerns about more questions need to be 
asked about the $50 million and the appropriation and 
consistent with what Mr. Jones and some others have said.
    I am now not clear. What do you all think about this idea 
that this is a parallel track that is being set up that is not 
going to be the way that services are going to be delivered to 
Iraq or Afghanistan and how does that impact on budgeting?
    And from the perspective of the investment of the American 
taxpayers in this process that Ambassador Herbst is working so 
hard on, why would we not want to benefit somewhat sooner in 
Iraq or Afghanistan? If you could address some of those themes, 
please.
    Mr. Christoff. Several comments I have, also in reference 
to some of your comments and Mrs. Davis about lessons learned.
    But, first, in terms of the civilian reserve corps, I think 
we fully support the concept. I am not disagreeing with that. I 
am just suggesting that as the Congress moves forward and you 
are ramping up to 2,000 standby reservists and an additional 
2,000 civilian reserve corps, you would want to know a little 
bit more about the details.
    So I think that is something that is appropriate in terms 
of looking at any new program that will probably cost more 
money in the future.
    But I want to try to see if I could relate this structure, 
the framework that we are trying to develop through Ambassador 
Herbst's office with Iraq, because you were talking about 
lessons learned.
    Are there any lessons learned from Iraq that might be 
applied to this new framework? And I think there are and I 
think the development of the joint campaign plan, the campaign 
plan that was developed by the Multinational Force Iraq and the 
U.S. embassy is an example of interagency coordination and it 
was done at the field level.
    And I think that in looking----
    Dr. Snyder. Mr. Christoff, is this the joint campaign plan 
that the Department of Defense refuses to give to this 
committee, the House Armed Services?
    Mr. Christoff. Correct.
    Dr. Snyder. It is that very same joint campaign plan, but 
they give it to GAO.
    Mr. Christoff. Correct.
    Dr. Snyder. Thank you.
    Mr. Christoff. But since it is within the Administration 
right now, it would be a good document to look at from the 
perspective of the lessons learned.
    Dr. Snyder. We thought so for several weeks to months.
    Mr. Christoff. But what I am saying is some of the concepts 
and the framework that Ambassador Herbst talks about I can see 
in the interagency process that is occurring within Iraq.
    There is what is called the Iraq policy and operations 
group, the IPOG, which is at the NSC level, very much similar 
to the concept that Ambassador Herbst is proposing for this 
country reconstruction and stabilization group.
    The FACs, the field advanced civilian corps, are PRTs that 
are in Iraq right now and then you have interagency and 
coordination mechanisms within U.S. embassy Baghdad MNFI, as 
well.
    So I think there are a lot of lessons learned in the 
development of our plans in Iraq that could be fruitful and 
come in completing this framework that we now have for our 
future stability operations.
    Dr. Snyder. That doesn't answer my question, though, Mr. 
Christoff. I understand that. Mr. Herbst has been, I think, 
very aggressive about trying to learn from what is going on in 
Iraq.
    It doesn't solve the problem of my friend who says the 
cultural barriers between the military, Department of State and 
other civilian agencies seem more striking than those between 
the United States and Iraqis, to me, somebody who is in Iraq 
right today.
    I don't see it is going to go up. I don't see that the 
structural change that Mr. Herbst is working on, there is no 
intent of having that structure somehow help to break down 
those stovepipes.
    From your all's perspective of trying to get the most bang 
for the buck, why would we not be insistent that this work be 
expedited and that we put a priority on it so that their good 
work can come back down to help the folks that are on the PRTs 
in Iraq and Afghanistan today?
    Does that not concern you?
    Mr. Christoff. Well, but, again, you have a process in Iraq 
now that is being implemented under NSPD-1.
    Dr. Snyder. But we don't think it is working very well, do 
we?
    Mr. Christoff. What difference--well, according to the GAO 
report, probably not.
    Dr. Snyder. We have heard from GAO about you all reporting 
that it is not working as well, I mean, our anecdotal 
information. We think they are wonderful people. We think they 
are doing good things and are obviously working very hard at 
great risk themselves to do good things, but you all have 
pointed out, where are the measurable objectives, what are the 
goals and objectives and it is not measurable.
    And the good things that are being done, we think, would be 
even greater, that there would be more good if we had the kind 
of structure that Mr. Herbst is working on to assist them, to 
break down some of these stovepipes here in Washington.
    I think that is the direction we are heading. Well, anyway, 
I am getting too long
    I wanted to ask, Mr. Herbst, we have had this issue come up 
in the last day or so. I have used the example of my friend in 
Iraq there that you just heard me read her quote again and we 
have had this issue in the paper this morning about, the ``New 
York Times'' headline, ``Immunity Deals Offered to Blackwater 
Guards,'' that apparently State Department had a press report.
    State Department security investigators offer some kind of 
immunity to these guards, unbeknownst to the Justice 
Department, that is now involved.
    Is that not an example of stovepiping? I mean, should 
that--after five years of war in Afghanistan, with an abundance 
of contractors, and heading into five years of war in Iraq, 
with an abundance, thousands of contractors, is that not the 
kind of issue that should have been broken down?
    Somebody somewhere should have said, ``You know, one of 
these tens of thousands of armed contracted personnel may have 
a legal problem. Perhaps we should ahead of time have a 
discussion with the Department of Justice about how to handle 
that.'' Is this not a glaring example of the breakdown, of our 
failure here in Congress, the failure of the government to not 
have foreseen these kinds of issues and break down some of 
these stovepipes?
    Is that not an example of that?
    Ambassador Herbst. Congressman, I read that article, but I 
really don't have any more information than what I read in that 
article.
    All I can say is that the system, the interagency 
management system would have in all of its institutions the 
relevant agencies playing a role in the area in crisis.
    So that State Department would be working with USAID, 
Treasury, Justice, et cetera, which should make it possible to 
formulate responses to events which reflect the outlook and the 
interests of the entire interagency.
    Dr. Snyder. Which should not surprise another agency. 
Actions should not be taken----
    Ambassador Herbst. Transparency is a very important part of 
the interagency----
    Dr. Snyder [continuing]. That surprised another agency and 
it clearly was a surprise here.
    Mrs. Davis, for five minutes.
    Ms. Davis of California. Thank you, Mr. Chairman. I am 
happy to just wrap up my questions.
    One of the issues, and I guess this really reflects on the 
House committee, as well, when we think in terms of personnel. 
It is my understanding, from a colleague, that if somebody 
serves in the PRTs, if one of our military offers serves in the 
PRTs, that is not considered a joint station, essentially, or 
joint experience in the same way that we think of jointness in 
the services and their need to be able to do that in terms of 
career development and career ladder.
    So are you aware of that? And I guess the question would 
be, was the State Department, as well? It is my understanding, 
again, that initially there was no great incentive for anybody 
to serve over in Iraq or Afghanistan, because it didn't help 
them in their ability to progress in their career.
    Has that changed and what other changes do you anticipate?
    And I think to GAO, to Ms. St. Laurent and Mr. Christoff, I 
asked about the DOD centric perception. What is your perception 
of that? How well do you believe that we are engaging agencies 
perhaps beyond State in this interagency now and in these new 
plans that are being developed?
    Is it still 90 percent? Is it something other than that? 
And what is it that reflects that for you, that actually we 
have gone beyond that mentality?
    Go ahead.
    Ms. Ward. If I could take that as a question for the record 
on the joint billets, because I just don't know the answer 
whether the PRT leaders are, in fact, joint billets. So I will 
provide the committee an answer on that.
    I would say that I think the commanders on the ground see 
the PRT as an increasingly important capability in their 
counterinsurgency fight. So someone serving in that is 
certainly going to get recognition for that.
    It is my understanding, in Afghanistan, that often the PRT 
leaders are coming off of the command list, so have been 
selected for command in any case or are actually doing their 
second command.
    So these people are getting rewarded for their service on 
the PRTs. On the joint billet issue, I owe you an answer on 
that.
    Ms. Davis of California. And at the State Department?
    Ambassador Herbst. Again, I am not responsible for 
personnel policies, but my understanding, as a career foreign 
service officer, is that people who have gone to both Iraq and 
Afghanistan have gotten consideration, for example, as they 
move toward next assignments and I think it has been helpful 
for people's careers to serve there.
    So that is I don't think a problem in terms of our 
recruitment for those assignments.
    Ms. St. Laurent. In response to your second question, I 
think, again, DOD's interest is in expanding the extent to 
which they cooperate with other agencies, but if you look at 
the status of planning today, I think there is still probably 
very much a DOD centric view in the development of their own 
plans and there is also the issue of DOD having much more 
capacity to respond to these kinds of events today.
    I think one issue I would like to raise with regard to the 
interagency management framework is it is still not clear to 
what extent that framework is going to be triggered and when it 
would be triggered to deal with future crises, because that has 
to be a specific determination that is made, whereas the 
military commands are able to carry out a wide array of routine 
planning.
    So, again, unless this mechanism is tested and used, the 
military may still be in the position of having the most robust 
plans for dealing with potential conflicts.
    Ms. Davis of California. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Farr, would you like another five minutes 
of discussion?
    Mr. Farr. Yes, sir.
    Dr. Snyder. Five minutes.
    Mr. Farr. Thank you, Mr. Chairman.
    Ms. Ward, in reading your testimony and understanding how 
keen you are on this Directive 3000.5 and recognizing the 
importance that the Department of Defense ha set up in the 
naval postgraduate school center there, my question is do you 
intend to POM that in the next budget?
    Ms. Ward. Sir, I do not know the answer to that question, 
but I will look into that. My understanding of the center is 
that it is seen by all to be a very important center and 
contributing a great deal. So I have no information that it 
won't be POM'd.
    But I would be happy to provide you an answer in writing on 
that.
    Mr. Farr. Thank you.
    And I guess to the ambassador. Ambassador Herbst, I am 
trying to get your bill passed and perhaps this hearing will 
make another committee in this House a little bit more 
interested in it, hopefully so, but without the authorization, 
we have appropriated the money and when the appropriators 
understand how important it is to get moving.
    Without that authorization, what does that do to your----
    Ambassador Herbst. We need the authorizing legislation in 
order to actually get the money and to use it to create the 
civilian reserve corps.
    If we receive the money within the next week or so, month 
or so, a year from now, we will have a 500-person civilian 
reserve corps trained, equipped, obviously, recruited, with the 
right skills to deploy in a crisis.
    Mr. Farr. Because that reserve corps has to be experts and 
when you are talking about recruiting, you are talking about 
people that have had careers in these various fields of need. 
So they come in with those language skills and with other kinds 
of skills.
    What you are doing is honing them into a response team, 
right, so that they can operate internationally?
    Ambassador Herbst. They will come in with the requisite 
technical skills needed. Some of them will probably have 
language skills, too, but we will make sure that the unit has 
the necessary language skills and the necessary area expertise.
    So we would be hiring skilled people and then training and 
recruiting them for stabilization operations, yes.
    Mr. Farr. I thank you.
    Mr. Chairman, I think what is really important here is, 
again, the nature of this hearing is all about interoperability 
of our Federal agencies and it just strikes me that one thing 
we haven't done, and maybe GAO could get into this, is we ought 
to at least keep a registry of who these experts are, even if 
we just set it up voluntarily.
    We have the capacity to do that. But when I tried to set 
that up with the Manpower Defense Center in Monterey, which has 
the computer capacity to handle it all, they were saying it all 
had to go out to bid and had to all--it got so confusing that 
we haven't even been able to do it, and we were just looking 
for a registry for linguists.
    But I do think, as the Federal Government, we need to keep 
track of people. The policy is when you leave Federal service, 
unless you sort of want to be called, you are gone and we don't 
know who you are, we don't know where you are.
    And what a waste of just having an alumni association 
directory and that is what I think part of this, setting up 
this reserve corps, crisis corps is made up of those people, 
and we wouldn't have to be looking to draft people to go to 
Iraq. We might have people that would come out of retirement 
and could do that job very well.
    Mr. Christoff. And I think there are some good lessons from 
how the Canadians and the Germans are trying to put together 
this list that could help our purposes, as well.
    Mr. Farr. I think these incidents are international, we 
have international partners, and they ought to be at the table, 
too. So I would like to see us move as quickly as possible to 
get the skill level and the one-stop process going.
    And I want to just applaud the military for taking a lead. 
It is certainly a long way from saying we don't do nation 
building to Directive 3000.5. I think that is an admission that 
we can't stabilize or lead without this skill set.
    Thank you. Thank you, Mr. Chairman.
    Dr. Snyder. Thank you, Mr. Farr.
    I have just one or two short questions and then we will 
conclude. I know that Mr. Christoff and others need to get 
going.
    My question for GAO, in your conclusion, you know, we read 
these little highlights over here and what GAO recommends, 
``GAO recommends that DOD take several actions to improve its 
capabilities in interagency planning. DOD partially agreed, but 
did not specify actions it would take to address them. 
Therefore, GAO suggests Congress require DOD to do so.''
    We love legislation, you know, so we are glad to hear those 
kinds of recommendations. Then you amplify that, stating, ``We 
have also suggested that Congress require DOD to develop an 
action plan and report annually on its efforts to address our 
recommendations.''
    Would one of you comment on that, amplify on that a little 
bit? Since we, I think, are all in agreement that DOD is the 
one who has been most insistent on doing something different 
and yet the action plan, you are wanting a legislative mandate 
on DOD rather than the other agencies.
    Would you comment on that?
    Ms. St. Laurent. Certainly. We made several recommendations 
in our report. Again, we see DOD making progress and moving out 
and implementing the directive, but we think there are several 
areas that it needs to address more systematically, and one is 
the question of how to best define and what process to use to 
identify needed capabilities and then whether we have gaps in 
those capabilities today.
    So that was a recommendation we made. When we got the 
department's response to our report, it was not clear that they 
were going to take any specific steps in response to that 
recommendation.
    We made other recommendations that they provide better 
guidance on, how to go about determining measures of 
effectiveness or performance measures, again, for how they are 
doing in implementing all the things in the directive.
    And because DOD's responses to all of our recommendations 
were rather vague, we think these are issues that need to be 
addressed with very specific action plans. So that is why we 
then suggested to the Congress that they might want to require, 
in some future legislation or committee report, that DOD report 
back to them on what they are doing in response to the 
recommendations we have made.
    Dr. Snyder. A week ago or so, we had a hearing here with 
representatives from State Department and USAID, Justice, 
Treasury, Ag, and we had a minor little dust-up, because two of 
the opening statements, written statements, one from the 
Department of Justice and one from Ag, had an identical 
paragraph in it that apparently came from the NSC, which I am 
fine with the paragraph.
    I just think it surprised the witnesses to find out that 
they had each had an identical paragraph, even though they were 
coming through two different agencies. I think it was a little 
bit embarrassing for them.
    But I wanted to read the one sentence from that paragraph, 
which I assume that at least we have a buy-in from Justice, Ag 
and NSC, since they all had that as part of their--have 
acknowledged some joint authorship.
    ``To improve our ability to respond to overseas challenges 
and provide the personnel expertise needed will require that we 
increase our numbers of available trained and deployable 
personnel within our department and others and that we support 
them with a structure in Washington that conducts planning and 
coordination.''
    I think that--and you are working on it, Mr. Ambassador. My 
only perhaps minor criticism today would be I understand the 
importance of the civilian reserve corps, and I think we under-
fund the State Department. You have no redundancy around the 
world.
    If we pull an Ag person out of Uzbekistan to go to Iraq, 
there is no one to step forward and do the work in Uzbekistan. 
There are a lot of issues there. But to me, the most important 
issue here is ``and support them with a structure in Washington 
that conducts planning and coordination.''
    And what we are hearing today is you all are working on a 
structure that you hope will be ready in two to three to ten 
years, but the concern is it is not going to be helping, we 
don't think, in any immediate way with the work that our folks 
are doing in Iraq and Afghanistan today.
    And that may be something that we all need to spend more 
time talking about and how we can impact on that.
    I did want to acknowledge Mr. Akin's absence. He would have 
been here, but he has an amendment on the floor today.
    Mr. Ambassador, did you want to make a final comment?
    Ambassador Herbst. Yes, Mr. Chairman. The structure is 
ready now. I think the reason why we have a bit of confusion is 
it is not being applied directly to run the current crises, but 
the structure is ready now.
    What is not ready now is the human response capability 
which has the necessary--all the training and the skill sets 
and the interagency elements that we have devised.
    Dr. Snyder. Well, I think we have had that discussion. I am 
still not clear why there is not more immediate impact on what 
is going on with our current PRTs overseas in Iraq and 
Afghanistan. It sounds like a parallel structure.
    We appreciate you all being here. You all should take this 
as an open ended opportunity, if there is anything you want to 
clarify for the record, take as a question for the record, feel 
free to add any additional comments.
    The hearing is adjourned.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            October 30, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 30, 2007

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            October 30, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. NSPD-44 designates the Secretary of State as the lead 
for coordinating and integrating U.S. Government efforts to prepare, 
plan for, and conduct stabilization and reconstruction activities.

     --  What have been the most significant challenges that State, and 
S/CRS in particular, have faced as they attempted to coordinate and 
integrate U.S. government stabilization and reconstruction activities 
in the form of PRTs and their interface with other State and USAID and 
military missions in Iraq and Afghanistan and how have these challenges 
informed your work in S/CRS?

    Ambassador Herbst. Consistent with NSPD-44, the Secretary of State 
has directed the Office of the Coordinator for Reconstruction and 
Stabilization (S/CRS) to develop the mechanisms needed to lead, 
coordinate, and institutionalize civilian capability to prevent or 
prepare for post-conflict situations and to help stabilize and 
reconstruct societies in transition from conflict or civil strife, so 
they can reach a more sustainable path toward peace, democracy, and a 
market economy. However, S/CRS was created after the missions in 
Afghanistan and Iraq were underway, and it has not been directly 
involved in the management of the PRTs.
    Instead, over the three years since it was established, S/CRS has 
begun to create a fundamentally new approach to enable more timely, 
integrated, and effective management of U.S. Government efforts in 
reconstruction and stabilization. This new approach draws on lessons 
learned from the U.S. experience in Iraq and Afghanistan, in particular 
the importance of ensuring that adequate civilian resources are 
available to conduct effective reconstruction and stabilization 
operations and the need to maximize unity of effort among civilian 
agencies and between civilians and the military in pursuit of a common 
strategic objective.
    For instance, in Afghanistan, S/CRS has developed a planning 
methodology with CJTF-82, the operational U.S. military headquarters in 
Afghanistan, and the Embassy to improve interagency PRT planning as 
well as to train new PRT leaders. Lessons from S/CRS' current work on 
PRTs in Afghanistan are being applied in the IMS operations guide, 
which, for example, lays out coordination procedures between the FACTs 
and the other structures in the IMS.
    On the larger question, improved performance in future 
reconstruction and stabilization missions requires modification of 
long-standing bureaucratic practices and creation of new habitual 
relationships, lines of communication, and forms of cooperation. 
Creating these new forms of cooperation and securing the resources to 
carry out its mandate have been among the most significant challenges 
S/CRS has faced.
    Dr. Snyder. NSPD-44 designates the Secretary of State as the lead 
for coordinating and integrating U.S. Government efforts to prepare, 
plan for, and conduct stabilization and reconstruction activities.

     --  Do you agree with GAO's assessment that the roles and 
responsibilities of all organizations need to be more clearly defined? 
If not, why not? What steps are being taken to clarify the roles and 
responsibilities within State and among Government agencies that not 
only related to other interagency stability and reconstruction efforts, 
but could help the PRTs in Iraq and Afghanistan now?

    Ambassador Herbst. The GAO report contains useful recommendations 
that we will consider as we move forward on developing the interagency 
procedures and mechanisms for effective management of reconstruction 
and stabilization operations. The Department believes that the GAO 
report, however, does not fully capture progress made toward achieving 
the goals articulated in the report recommendations, as well as the 
overall progress achieved toward developing a civilian reconstruction 
and stabilization capability.
    S/CRS and our interagency partners continue to work on fine-tuning 
the Interagency Management System (IMS), the interagency policy and 
operational mechanism for managing the USG response to reconstruction 
and stabilization situations. In conjunction with our interagency 
partners and colleagues in State's regional bureaus, we will refine and 
test the IMS through a number of events, experiments, and exercises 
with the goal of further identifying gaps and clarifying roles and 
responsibilities both within the Department of State and among 
executive branch agencies.
    Over ten U.S. Government departments participated in a recent 
demonstration of the IMS and in the after-action review that provided 
very useful input to help the interagency fine tune IMS procedures and 
mechanisms.
    These lessons learned and new ways of cooperation among State and 
the interagency can help facilitate integrated, coordinated civilian 
activity in the PRTs in Iraq and Afghanistan.
    Dr. Snyder. NSPD-44 designates the Secretary of State as the lead 
for coordinating and integrating U.S. Government efforts to prepare, 
plan for, and conduct stabilization and reconstruction activities.

     --  From your perspective, do you see significant differences in 
the capabilities and capacities of U.S. Government agencies to engaged 
in stabilization and reconstruction activities as indicated by the 
challenges of standing up three different kinds of PRTs in Iraq and 
Afghanistan and how are these differences best addressed as you move 
forward in planning for other current and future stability and 
reconstruction efforts?

    Ambassador Herbst. Differences in interagency capabilities and 
capacities do exist and are being addressed through multi-agency 
working groups convened under the authority of the NSPD-44 Policy 
Coordinating Committee that bring together representatives from a dozen 
U.S. Government (USG) agencies, as well as National Security Council 
staff, to develop the means for effective future interagency management 
of reconstruction and stabilization operations.
    The civilian response capability being developed by the Office of 
the Coordinator for Reconstruction and Stabilization (S/CRS) under 
NSPD-44 will provide the ready, quick response, civilian surge capacity 
needed to meet short or long term personnel requirements for 
reconstruction and stabilization missions. It includes the following 
components:

     <bullet>  Active Response Corps (ARC), the USG civilian ``first 
responders,'' who are ready for immediate deployment within 48 hours to 
reconstruction and stabilization crises worldwide.

     <bullet>  Standby Response Corps (SRC), USG civilian employees who 
maintain their current government positions but are trained and ready 
to deploy within thirty days.

     <bullet>  Civilian Reserve Corps (CRC), the pool of civilian 
(private sector and state and local government) experts requested by 
President Bush that will, if authorized this fiscal year, provide 
trained volunteers with specialized skills.

    S/CRS is working with its interagency partners to create, staff, 
and operate these three corps. Our coordinated effort will help 
harmonize differences among agencies' capabilities and capacities.
    Dr. Snyder. I understand S/CRS has been working with PRTs in 
Afghanistan, but I appreciate that they started and formed before S/CRS 
was up and running. If the U.S. Government decided to take on an 
entirely new stabilization and reconstruction task similar to what we 
are trying to accomplish in Afghanistan starting today, could you give 
us some idea as to how the work you have been doing in S/CRS would be 
applied? Why isn't S/CRS involved with PRTs in Iraq? Should it be? Why 
or why not?
    Ambassador Herbst. In the initial stages of a new reconstruction 
and stabilization operation of a similar nature and size as that in 
Afghanistan, the U.S. Government (USG) can activate the Interagency 
Management System (IMS) for Reconstruction and Stabilization. When 
activated, the IMS is the structure by which the USG would plan for and 
manage an operation in Washington (Country Reconstruction and 
Stabilization Group), at military headquarters (Integration Planning 
Cell), and in the field (Advance Civilian Teams).
    In Washington, S/CRS would coordinate and co-chair with the NSC and 
the Assistant Secretary of the relevant State Department regional 
bureau an operation-specific Country Reconstruction and Stabilization 
Group (CRSG) to oversee Washington-based whole-of-government strategic 
planning and operations. This planning process would follow the USG 
Planning Framework for Reconstruction, Stabilization, and Conflict 
Transformation currently being refined by an interagency working group.
    In addition to the Washington-based CRSG structure, the supported 
Geographic Combatant Command or multi-lateral military command would 
receive a team of USG civilian planners--called an Integration Planning 
Cell (IPC)--to harmonize civilian and military planning processes.
    Finally, if requested by the Chief of Mission, an interagency 
Advance Civilian Team (ACT) would deploy to support the Embassy in 
implementing the U.S. strategic plan for reconstruction and 
stabilization. An ACT could also deploy with the military if there was 
no existing U.S. diplomatic mission, as was the case in Afghanistan in 
2001. In addition, Field Advance Civilian Teams (FACTs) could be 
further deployed to extend the U.S. reconstruction and stabilization 
capacity to the regional or provincial level, serving a role similar to 
that played by PRTs in Afghanistan today.
    The different components of the IMS structure would include 
representatives from all relevant federal agencies. To ensure adequate 
staffing for such missions, S/CRS has established an Active Response 
Corps (ARC) and a Standby Response Corps (SRC) of full-time federal 
personnel. President Bush has also proposed a Civilian Reserve Corps 
(CRC) that would be comprised of civilians with the requisite skills 
who contractually obligate to serve--much as in the military Reserves--
making their relevant skills available for Reconstruction & 
Stabilization missions if and when called-upon by the President.
    In Afghanistan, S/CRS has developed a planning methodology with 
CJTF-82, the operational U.S. military headquarters in Afghanistan, and 
the Embassy to improve interagency PRT planning as well as to train new 
PRT leaders. Lessons from S/CRS' current work on PRTs in Afghanistan 
are being applied in the IMS operations guide, which, for example, lays 
out coordination procedures between the FACTs and the other structures 
in the IMS.
    S/CRS also has been involved with PRTs in Iraq. In response to 
requests from the Department of State's Near Eastern Affairs bureau, S/
CRS helped design and field interagency training in support of the 2007 
surge of PRT personnel to Iraq. S/CRS is also working to capture 
lessons learned from the Iraq PRT experience to inform PRT training and 
improve the USG's response to future contingencies.
    Dr. Snyder. As the PRTs have amply demonstrated, reconstruction and 
stabilization is not a task the U.S. should take on alone. What, in 
particular, are you doing to apply the key lessons from the experience 
of having international partners in Afghanistan and Iraq doing parallel 
work in some regions to a larger, overall planning framework for 
reconstruction and stabilization? Are other nations' efforts viable 
models for us to consider?
    Ambassador Herbst. The USG Planning Framework for Reconstruction, 
Stabilization, and Conflict Transformation, currently being refined by 
an interagency working group, was initially developed jointly with the 
United Kingdom's Post-Conflict Reconstruction Unit (PCRU). The 
principles, processes, and methodologies in the framework, including on 
conflict assessment and metrics, have been tested with more than 30 
U.S. and international partners through Multi-National Experiments 4 
and 5. We continue to jointly refine these tools with international 
partners to enable close integration of efforts in future 
reconstruction and stabilization operations. In consultation with 
regional bureaus, some of these tools have been adapted for U.S. 
efforts in Afghanistan.
    Since its inception, S/CRS has engaged with potential partners 
around the world to establish relationships, learn from each other's 
best practices, and generally set the stage for coordinated responses 
to future engagements. S/CRS is in close and frequent coordination with 
counterparts in Canada, the United Kingdom, Australia, France, United 
Nations, the European Union, NATO, Finland, Japan, South Korea, and the 
Netherlands, to name a few. To share lessons and refine procedures for 
future coordination, S/CRS staff collaborate on a working level with 
international counterparts and participate in training and exercises 
led by these partners, and vice-versa.
    In future reconstruction and stabilization operations, as it is 
now, much of the work of finding and committing international partners 
will be diplomatic. The responsibility for diplomatic outreach 
ultimately rests with the Department of State regional bureau in 
support of the Secretary of State and the President. This effort would 
be bolstered by the Interagency Management System for Reconstruction 
and Stabilization (IMS), a newly agreed upon system for how the U.S. 
Government should organize itself to deal with a stabilization crisis. 
It would be a function of the Washington portion of the IMS, the 
Country Reconstruction and Stabilization Group (CRSG), to identify the 
objectives, to know which international partners have capacity and 
expertise in which areas, to frame the discussion with these potential 
partners, and to integrate to the greatest extent possible planning and 
operations with these partners. By approaching these partners early and 
at a high-level and then planning deliberately together at capitals and 
in the field, we hope to avoid doing parallel work and better focus our 
efforts on our areas of strength.
    Dr. Snyder. We have been interested in learning about metrics to 
determine success for PRTs in both Afghanistan and Iraq and we 
appreciate that the work they do is inherently difficult to measure, 
but as you consider what sorts of reconstruction and stabilization 
efforts you might be called upon to coordinate are you giving 
sufficient thought as to how the effectiveness or success of those 
missions might be measured? Describe the methodology you intend to use 
to measure the performance of civil-military teams involved in 
stabilization and reconstruction operations.
    Ambassador Herbst. Since its creation, S/CRS has developed 
methodologies and processes based on the principle that metrics must be 
integral to mission planning and operational management. From the 
outset, at the strategic level, policy options need to be paired with 
an understanding of what ``success looks like'' on the ground. At each 
level of planning (strategic, operational, and tactical), planners and 
decision-makers must arrive at a shared and realistic understanding of 
how success will be measured. Metrics, when used appropriately, should 
help policymakers determine when changes in strategy or tactics are 
required.
    Effective metrics do not simply capture USG ``outputs'' alone 
(e.g., number of schools built or number of police trained). While 
those data sets are critical to program management and oversight, 
policymakers must be concerned with what ``impact'' our efforts are 
having on the lives of the people on the ground (e.g., do people feel 
safe and do people feel that their government is providing the 
necessary services). We and our international counterparts are learning 
to measure outcomes in addition to outputs. This will inform our policy 
towards the host nation; aid us in refining our continuing 
reconstruction and stabilizations efforts in the host country; and will 
be instrumental in the research and study done to improve the efficacy 
of future reconstruction and stabilization engagements elsewhere in the 
world.
    Dr. Snyder. Are you developing benchmarks or measures to determine 
when stability operations are no longer needed and more traditional 
means of providing development and diplomatic assistance can be used? 
How permissive does the environment need to be? Have milestones or 
standards been established to determine when to transition to more 
traditional means? If not, why not?
    Ambassador Herbst. The transition from R&S operations to long-term 
development and diplomatic activities should occur when local 
government and other relevant local actors have the capacity to sustain 
a stable environment and adequately address spoilers and other 
instigators of conflict. In each country, potentially in each province, 
this transition point is different. Measures of success, similarly, 
should be tailored to the country and province.
    S/CRS has partnered with the U.S. Army Corps of Engineers, USAID, 
U.S. Institute of Peace and the Peacekeeping and Stability Operations 
Institute at the U.S. Army War College to develop a menu of possible 
indicators that focus on assessing the security of local civilians. 
This project is titled Measuring Progress in Conflict Environments 
(MPICE). In addition, MPICE contains menus of indicators for the four 
other sectors (Governance, Rule of Law, Economics and Social Well-
being) identified as critical to success by the report Winning the 
Peace: An American Strategy for Post-Conflict Reconstruction produced 
by the Center for Strategic and International Studies.
    Dr. Snyder. What are the resourcing considerations for future 
stability operations? How will they be reflected in future budget 
requests? Does the State Department require an increase in the overall 
number of FSOs?
    Ambassador Herbst. In Fiscal Years 2006 and 2007, S/CRS worked to 
demonstrate through interagency assessment, planning, coordination, and 
deployment that it can provide more effective assistance for 
reconstruction and stabilization operations. In Fiscal Year 2008, S/CRS 
is answering the growing demand and will build on our proven value-
added. We will expand the Active Response Corps, deploy more experts, 
increase our country planning engagements, increase our training, and 
continue to build our long-term ability to put interagency civilians 
teams on the ground where and when we need them.

      For FY 2009, a unified budget request is being prepared for all 
resources needed to develop and deploy the interagency response, such 
as training, readiness, equipment, some deployment funds, and new 
staffing, including Foreign Service and Civil Service positions 
necessary to build the capacity for quick response during crises.

    Dr. Snyder. What types of incentives do you believe will be 
required to induce civilians to volunteer? Are you re-evaluating 
current incentives to determine if additional or other incentives are 
needed in light of the unanticipated need to direct assignments to 
Iraq?
    Ambassador Herbst. We believe that patriotism will be a strong 
incentive for volunteers, keeping in mind that they are volunteering to 
be part of a national resource; not in response to a particular 
engagement. However, realizing the danger and hardship inherent in 
assignment to countries where conflict is ongoing or has recently 
ended, members of the Civilian Reserve Corps who are activated will be 
eligible for the same monetary incentives available to other federal 
employees civilian employees when deployed. Depending on the location 
and conditions of the assignment, these may include Premium Pay, Post 
Differential, Danger Pay, Locality Pay, and possibly a Recruitment 
Bonus depending on the difficulty in filling positions.
    There will be a dual compensation waiver for retired Foreign 
Service and Civil Service employees, which will be a significant 
incentive for federal retirees.
    Reservists, when deployed and on a term appointment in the civil 
service, will accrue the same Leave benefits as other federal employees 
and will be eligible for life and health insurance, workers' 
compensation, and participation in the Federal Employees Retirement 
System and the Thrift Savings Plan.
    We believe the incentives above as well as a desire to serve one's 
country, as demonstrated by the high fill and re-employment rates of 
the ``3161'' positions in Iraq, will be sufficient. However, we will be 
regularly re-evaluating our recruitment efforts to determine if 
additional incentives are required.
    Dr. Snyder. Describe the interaction and relationship S/CRS has 
with the Assistant to the President and Deputy National Security 
Advisor for Iraq and Afghanistan. Describe the role of the Assistant to 
the President and Deputy National Security Advisor for Iraq and 
Afghanistan plays in the Interagency Management System and in the 
Planning Framework for Reconstruction, Stabilization, and Conflict 
Transformation.
    Ambassador Herbst. S/CRS plays a supporting role to the respective 
Department of State regional bureaus. As a result, our interaction with 
the Assistant to the President and Deputy National Security Advisor for 
Iraq and Afghanistan occurs through the Bureau of Near Eastern Affairs 
and the Bureau of South and Central Asian Affairs.
    The Assistant to the President and Deputy National Security Advisor 
for Iraq and Afghanistan is not involved directly with the IMS and the 
USG Planning Framework, as these mechanisms are not being used for Iraq 
or Afghanistan. However, other components of the NSC monitor the 
progress of--and participate in--the implementation of National 
Security Presidential Directive-44 on Management of Reconstruction and 
Stabilization Operations, including the development of the Interagency 
Management System for Reconstruction and Stabilization and the USG 
Planning Framework for Reconstruction, Stabilization, and Conflict 
Transformation.
    Dr. Snyder. What policy and guidance have you set for the Services 
for selection and or training for stability operations?
    Ms. Ward. DoD Directive 3000.05, ``Military Support for Stability, 
Security, Transition and Reconstruction (SSTR) Operations'' establishes 
policies governing stability operations training. It directs DoD 
institutions to develop stability operations curricula across the 
spectrum of training activities to include both individual and unit 
training. In keeping with the Directive's overall mandate of giving 
stability operations priority comparable to major combat operations, 
stability operations training is an integral part of DoD's training 
regimen.
    Particular emphasis is placed on ensuring an appropriate balance in 
training for combat and stability operations, with the needs of current 
operations tipping the balance toward greater stability operations 
training. For stability operations, focus is placed on the skills 
necessary to:

     -  Analyze the environment, and apply kinetic and non-kinetic 
capabilities as the situation demands.

     -  Train and advise foreign security forces at the tactical, 
operational, and national levels.

     -  Work with civilian partners (USG, international, host nation, 
etc.).

     -  Support transitional security, civil governance, and essential 
services activities in conflict zones.

     -  Operate within a foreign culture.

    DoD is capturing the best practices from current operations to 
ensure DoD maintains and enhances its capacity to prepare units for 
operations in any theater, including stability operations.
    Dr. Snyder. GAO reported that DOD has yet to identify and 
prioritize the full range of capabilities needed for stability 
operations because of a lack of clear guidance on how and when to 
accomplish this task. What progress has DOD made in identifying and 
prioritizing capabilities needed to effectively conduct stability 
operations? What steps is DOD taking to ensure that different combatant 
commands approach the identification of requirements in the same way? 
How is CENTCOM doing it? Does CENTCOM have responsibility for U.S. PRT 
strategy and operations in Iraq and Afghanistan? How have the 
capability requirements for the PRTs in Afghanistan and Iraq been 
identified and addressed?
    Ms. Ward. DoD's approach has been to focus on updating strategic-
level guidance documents to instruct DoD components, including 
Combatant Commands (CoComs), to incorporate stability operations 
considerations in the planning and conduct of operations.
    The Office of the Deputy Assistant Secretary of Defense for 
Stability Operations Capabilities is working to more accurately 
identify specific capability gaps across the spectrum of doctrine, 
organizations, training, materiel, leadership and education, personnel, 
and facilities. The Army has also conducted an extensive stability 
operations capability gap analysis to identify missing stability 
operations capabilities.
    The CoComs are an integral part of stability operations capability 
development for both U.S. and international partners. Through the 
standardized Integrated Priority List (IPL) process, CoComs provide 
information to the Department on the capabilities needed to conduct 
their mission. These requirements are assessed in program development 
across all CoComs using a prioritization process that seeks to balance 
risks. Each CoCom has priorities unique to the nature of their region. 
One region may require capabilities in the security sector while others 
require governance or rule of law capabilities. DoD does not expect 
that each CoCom will submit the same requirements, but instead expects 
each to provide an assessment of their requirements across the spectrum 
of capabilities. As any other CoCom, CENTCOM participates in this 
process and provides requests for information (RFI), requests for 
forces (RFF) and Joint Urgent Operational Needs Statements (JUONS) to 
acquire specific capabilities to conduct stability and other types of 
operations.
    USCENTCOM does not have sole responsibility for Provincial 
Reconstruction Team (PRT) strategy and operations in Iraq or 
Afghanistan. In Iraq, this is the responsibility of the Office of 
Provincial Affairs, under the Department of State. In Afghanistan, this 
responsibility is shared by NATO's International Security Assistance 
Force (ISAF), US Embassy, and USCENTCOM.
    USCENTCOM retains responsibility for operations in Iraq but has 
delegated a number of authorities for the conduct of the campaign in 
Iraq to Multi-National Force--Iraq (MNF-I). MNF-I coordinates directly 
with the Office of Provincial Affairs on matters relating to PRTs. In 
Afghanistan, PRTs fall under the authority of ISAF, and broad PRT 
strategy is developed jointly by ISAF, the Government of Afghanistan, 
the U.S. Embassy, and Allies.
    PRT capabilities and requirements have been identified as part of 
the Request for Forces process; specific equipment needs are met 
through a combination of unit equipment and Joint Operational Needs 
Statements. In certain instances, PRT capabilities are also requested 
in Joint Manning Documents, which are developed and submitted in 
support of headquarters elements, and through direct coordination with 
the Department of State for necessary civilian skills. DoD is tracking 
these capabilities and requirements in order to inform future 
capability development and institutionalization.
    Dr. Snyder. We have been interested in learning about metrics to 
determine success for PRTs in both Afghanistan and Iraq and we 
appreciate that the work they do is inherently difficult to measure, 
but as you consider what sorts of reconstruction and stabilization 
efforts you might be called upon to coordinate are you giving 
sufficient thought as to how the effectiveness or success of those 
missions might be measured? Describe the methodology you intend to use 
to measure the performance of civil-military teams involved in 
stabilization and reconstruction operations.
    Ms. Ward. DoD is supporting development of PRT metrics that 
include: (1) establishing clear objectives and end-states; (2) 
developing milestones and transition phases for achieving the 
objectives; (3) applying resources in a coordinated fashion; and (4) 
continuous joint assessments based on an agreed-upon model with 
indicators.
    DoD (the Office of the Secretary of Defense, Joint Staff, U.S. Army 
Peacekeeping and Stability Operations Institute, and U.S. Army Corps of 
Engineers), the Department of State's Office of the Coordinator for 
Reconstruction and Stabilization, the U.S. Agency for International 
Development, the U.S. Institute for Peace, and the Fund for Peace are 
working on a model for conflict measurements to assist in campaign 
design for stability operations. The goal is to measure and evaluate 
success and progress against stated objectives. Such measures will also 
be applied to the development of milestones and transition points.
    Although objective data are difficult to collect in a conflict 
environment, the aim of this undertaking is to reflect the reality of 
conditions on the ground. This is especially important for establishing 
trend lines, to include the ebbs and flows of shifting conditions, in 
order to inform decision-makers of needed resource allocation and 
priorities. DoD is also examining existing models and data collection 
efforts by think tanks such as Carnegie, Brookings and commercial 
country risk assessment as a check on its internal measurements.
    Dr. Snyder. What are the resourcing considerations for future 
stability operations? How will they be reflected in future budget 
requests?
    Ms. Ward. DoD does not anticipate creating separate stability 
operations budget lines for DoD capabilities, but is instead driving an 
overall shift in priorities in capability development. As DoD continues 
to identify key capabilities, ranging from doctrine to organization to 
equipment, they will be reflected in the deliberations of the 
Department and in budget requests. DoD will work through existing 
budget frameworks and risk-informed deliberations of mission 
assignments and program development across the Department. Future 
resourcing for stability operations will be reflected in both programs 
and in application of key authorities, such as those needed to develop 
partner capacities.
    Beyond DoD, the U.S. government is currently underinvested in 
civilian capacity to conduct stability operations. During his recent 
Landon lecture series speech, Secretary Gates highlighted the need for 
``a dramatic increase in spending on the civilian instruments of 
national security--diplomacy, strategic communications, foreign 
assistance, civic action, and economic reconstruction and 
development.'' Increasing resources for civilian capacity will be 
critical in order to conduct successful stability operations in the 
future. Likewise, as the capabilities of foreign partners become more 
critical, changes to U.S. government programs that support functions 
such as foreign train, advise and assist programs can be expected.
    Dr. Snyder. According to GAO's testimony, DOD's policies and 
practices inhibit sharing of planning information and limit interagency 
participation in the development of military plans developed by the 
Combatant Commanders. Specifically, GAO reported that there is not a 
process for sharing plans with non-DOD agencies, early in the planning 
process, without specific approval of the Secretary of Defense. What 
actions is DOD taking to improve information sharing with interagency 
partners early in the planning process?
    Ms. Ward. DoD believes that the quality of DoD planning improves 
with appropriate participation from other U.S. departments and 
agencies; this has been the experience in Homeland Defense and War on 
Terror efforts, where DoD routinely plans with other agencies in whole-
of-government efforts. However, DoD must balance the benefits of 
sharing military contingency plans with the need for force protection, 
operational security, timely plan development, and the limited capacity 
of civilian agencies to participate in the DoD planning process.
    Currently, DoD shares critical aspects of military plans with 
elements of other agencies, while not necessarily sharing the entire 
plan. In executing current operations, DoD encourages field 
coordination between CoComs and Chiefs of Missions, and the assignment 
of liaison officers for sharing information. DoD has recently taken the 
step of inviting interagency representatives to participate in the 
development of DoD strategic planning guidance. DoD intends to work 
with other agencies to test new processes and fora for plans 
coordination as well as solicit their input earlier in the planning 
process. Additionally, the Departments of Defense and State are 
reviewing personnel-detailing processes between the departments with 
the intent of increasing collaboration. Finally, DoD strongly supports 
National Security Presidential Directive-44 whole-of-government 
planning efforts, which will guide the development of U.S. government 
plans that military contingency plans may support.
    DoD believes that these efforts, as well as increased involvement 
of civilian agencies in reviewing DoD plans, will build those agencies' 
ability to support DoD planning efforts.
    Dr. Snyder. According to GAO, previous DOD planning guidance 
considered four phases for military operations. However, DOD's revised 
planning guidance now includes six phases of an operation. Could you 
explain the significance of this shift and how it affects stability and 
reconstruction operations?
    Ms. Ward. The shift from four phases to six phases is significant 
in that it emphasizes the importance of planning for and conducting a 
variety of activities throughout an operation. The new construct 
recognizes that all military operations are a combination of offensive, 
defensive, and stability operations. The proportions of those 
activities vary based on the operation's phase and type. This means 
that greater emphasis in military planning will be placed on activities 
conducted during: Phase IV--Stabilize; Phase V--Enable Civil Authority; 
and back to Phase 0--Shape.
    Dr. Snyder. Describe the interaction and relationship the 
Department of Defense has with the Assistant to the President and 
Deputy National Security Advisor for Iraq and Afghanistan in the 
implementation of DOD Directive 3000.05 and NSPD-44.
    Ms. Ward. DoD's primary interlocutors on the National Security 
Council staff for implementation of DoD Directive 3000.05 and National 
Security Presidential Directive-44 are through the Office for Defense 
Policy and Strategy and the Office for Relief, Stabilization, and 
Development (under the Deputy National Security Advisor for 
International Economics). Those offices work with the Office of the 
Deputy National Security Advisor for Iraq and Afghanistan. DoD, as well 
as State and NSC, are working to ensure lessons learned from across the 
U.S. government and from these and other post-conflict engagements are 
integrated into the development of new interagency doctrine, policy, 
and capabilities.
    Dr. Snyder. Your testimony cited several challenges that DOD has 
encountered in implementing its stabilization and reconstruction 
policy.

     <bullet>  What are some of the significant challenges that DOD has 
faced in identifying needed capabilities and measures of effectiveness?

    Mr. Christoff and Ms. St. Laurent. As discussed in our report on 
DOD stability operations, we found that the identification of stability 
operations requirements was occurring in a fragmented manner and that 
DOD had yet to systematically identify and prioritize the full range of 
needed capabilities.\1\ As a result, the services were pursuing 
initiatives to address capability shortfalls that may not reflect the 
comprehensive set of capabilities that will be needed to effectively 
accomplish stability operations in the future. At the time of our 
review we identified two factors contributing to DOD's limited progress 
in identifying capabilities. First, DOD had not issued guidance or set 
specific timeframes for the combatant commands to identify stability 
operations capability requirements. Furthermore, Joint Staff officials 
explained that the combatant commanders were expected to identify 
capability requirements based on revised operational plans, but DOD had 
not issued planning guidance to the combatant commanders to revise 
plans to reflect stability operations activities. Joint Staff officials 
expressed concerns that if combatant commands based their requirements 
on existing plans that have not been updated to reflect new planning 
guidance, the requirements would not reflect the more comprehensive 
stability operations capabilities needed. Second, a lack of a clear and 
consistent definition of stability operations resulted in confusion 
across the department about how to identify activities that are 
considered stability operations. For example, Air Force officials 
stated in their May 22, 2006, Stability Operations Self Assessment that 
the absence of a common lexicon for stability operations functions, 
tasks, and actions results in unnecessary confusion and uncertainty 
when addressing stability operations. In March 2007 they reiterated 
that they still considered the lack of a common lexicon a hindrance in 
identifying stability operations capabilities. Without clear guidance 
on how and when combatant commanders are to develop stability 
operations capability requirements, and a clear definition of stability 
operations, the combatant commanders and the military services may not 
be able to effectively identify and prioritize needed capabilities.
---------------------------------------------------------------------------
    \1\ GAO Military Operations: Actions Needed to Improve DOD 
Stability Operations Approach and Enhance Interagency Planning, GAO-07-
549 (Washington, D.C.: May 31, 2007).
---------------------------------------------------------------------------
    Similarly, we found that DOD guidance did not clearly articulate a 
systemic approach for developing measures of effectiveness and because 
of significant confusion over how this task should be accomplished, DOD 
had made limited progress in developing them. For example, the Army, 
Navy, and Marine Corps had placed the development of measures of 
effectiveness on hold pending more guidance and the Air Force believed 
that they had met the requirement to develop measures through a 
biennial review of Air Force Concepts of Operations \2\ conducted in 
2005. At the time of our review, officials from DOD's office for 
stability operations stated they were aware of the confusion 
surrounding the development of measures of effectiveness and were 
planning on conducting training that would help in developing the 
measures. However, as noted in our report, without clear departmentwide 
guidance and milestones for completing the measures, confusion may 
continue to exist and DOD will be limited in its ability to assess its 
efforts to enhance stability operations capabilities.
---------------------------------------------------------------------------
    \2\ Every two years, the Air Force conducts a comprehensive review 
of the Air Force Concepts of Operations (CONOPS) that articulate the 
capabilities needed and activities the Air Force must execute for the 
Joint Force Commander. The Capability Review and Risk Assessment (CRRA) 
process is the engine for capabilities-based planning. Inherent in the 
CRRA process is the use of both internal and external analysis. Within 
the CRRA process, the Air Force uses analyses provided by Risk 
Assessment Teams and analytic organizations. The capabilities 
identified in the CONOPS are consolidated in an Air Force Master 
Capabilities Library.
---------------------------------------------------------------------------
    Dr. Snyder.

     <bullet> How does DOD typically identify capability gaps and to 
what extent has this process been applied to examining stability 
operations capabilities?

    Mr. Christoff and Ms. St. Laurent. During the course of our review 
DOD identified a variety of methods being used to identify capability 
gaps, and in their official comments to our report, stated that the 
identification and development of stability, security, transition, and 
reconstruction operations capabilities are not so different from other 
DOD capabilities that they require new or separate methodology to 
identify and develop military capabilities and plans. The methods 
highlighted by DOD included:

     <bullet>  Officials from the Office of the Under Secretary of 
Defense for Policy stated they intended to identify capabilities and 
recommend priorities to the Secretary of Defense through an iterative 
process where combatant commanders would compare planned requirements 
for stability operations with current available forces and military 
capabilities and propose remedies for eliminating gaps. The Joint Staff 
would review these assessments and provide guidance to help identify 
requirements. The combatant command requirements were then expected to 
drive each service's development of stability operations capabilities 
and capacity.

     <bullet>  The use of Integrated Priority Lists.\3\
---------------------------------------------------------------------------
    \3\ A list of a combatant commander's highest priority 
requirements, prioritized across Service and functional lines, defining 
shortfalls in key programs that, in the judgment of the combatant 
commander, adversely affect the capability of the combatant commander's 
forces to accomplish their assigned mission. The integrated priority 
list provides the combatant commander's recommendations for programming 
funds in the planning, programming, and budgeting system process. Also 
called IPL.

     <bullet>  Joint Quarterly Readiness Reviews, which are a scenario-
based readiness assessment that identifies capabilities and risks 
associated with missions that support strategic-level planning guidance 
\4\.
---------------------------------------------------------------------------
    \4\ The Joint Chiefs of Staff are responsible for conducting a 
Joint Quarterly Readiness Review, which is a scenario-based readiness 
assessment that identifies capabilities and risks associated with 
missions that support strategic-level planning guidance. Participants 
in this review include the Combatant Commanders, senior representatives 
from DOD, the Military Services, and other DOD components.

     <bullet>  Other approaches, such as the Army's ongoing process to 
address gaps in Army stability operations capabilities and capacities 
and the Air Force's use of an analytical capabilities-based planning 
model that identifies specific shortfalls related to stability 
---------------------------------------------------------------------------
operations.

    At the time of our review, however, limited progress had been made 
by the department in identifying and prioritizing needed capabilities, 
and at the three combatant commands we visited, we found that the 
identification of stability operations requirements was occurring in a 
fragmented manner. This limited progress was caused by weakness in 
DOD's guidance, the absence of specific timeframes to complete 
capability gap analysis and confusion over how to define stability 
operations.
    Dr. Snyder. According to your report, previous DOD planning 
guidance considered four phases for military operations. However, DOD's 
revised planning guidance now includes six phases of an operation. 
Could you explain the significance of this shift and how it affects 
stability and reconstruction operations?
    Mr. Christoff and Ms. St. Laurent. By expanding its planning 
construct to consider shaping efforts to stabilize regions so that 
conflicts do not develop and expanding the dimensions of stability 
operations that are needed in more hostile environments after conflicts 
occur, DOD has recognized the importance of deliberately planning for 
stability and reconstruction operations. This change in the planning 
construct reflects a fundamental shift in DOD's policy that designates 
stability operations as a core mission that shall be given priority 
comparable to combat operations, and emphasizes that planning for 
stability and reconstruction activities is as important as planning for 
combat operations. In addition, this shift in policy and planning 
guidance requires DOD planners to understand and incorporate the roles, 
responsibilities, and capabilities that all agencies and organizations 
can contribute to stabilization efforts into military plans. 
Additionally, DOD must collaborate with non-DOD agencies to coordinate 
its planning efforts with representatives from various U.S. agencies, 
organizations, other governments, and the private sector.
    Although DOD has taken steps to establish interagency coordination 
mechanisms and to improve interagency participation in its planning 
efforts, it has not achieved consistent interagency representation or 
participation at the strategic, operational, and tactical levels of 
planning. At the time of our review, we identified the following three 
factors that limited interagency participation in DOD's planning 
efforts:

    <bullet>  DOD had not provided specific guidance to commanders on 
how to integrate planning with non-DOD organizations.

    <bullet>  DOD practices inhibited the appropriate sharing of 
planning information with non-DOD organizations.

    <bullet>  DOD and non-DOD organizations lacked an understanding of 
each other's planning processes and capabilities, and non-DOD 
organizations had limited capacity to fully engage in DOD's planning 
efforts.

    As a result, the overall foundation for unity of effort in 
stability operations--common understanding of the purpose and concept 
of the operation, coordinated policies and plans, and trust and 
confidence between key participants--is not being achieved.
    Dr. Snyder. According to your testimony, recent changes in policy 
and guidance require State and DOD to integrate their stabilization and 
reconstruction plans and to coordinate those plans with relevant 
government and non-governmental organizations. Can you describe the 
relationship between the planning framework State is developing under 
NSPD-44 and the planning improvements you suggest DOD pursue for 
improving interagency participation in military planning?
    Mr. Christoff and Ms. St. Laurent. As a part of its implementation 
of National Security Presidential Directive 44 (NSPD-44), State's 
Office of the Coordinator for Reconstruction and Stabilization (S/CRS) 
led development of the Interagency Management System (IMS) for managing 
high-priority and highly complex operations. IMS is designed to guide 
communications and interagency coordination between Washington policy 
makers and Chiefs of Mission, as well as between the civilian and 
military sectors. NSC approved IMS in March 2007. Although S/CRS and 
military combatant commands have jointly led exercises and simulations 
to test the system and train personnel in using it, as of November 
2007, IMS had not been applied to any stabilization and reconstruction 
operations.\5\ As a result, it is difficult to know how effectively 
civilian and military plans would be coordinated in an actual 
operation.
---------------------------------------------------------------------------
    \5\ The NSC Deputies and Principals Committees must approve use of 
IMS for any operation.
---------------------------------------------------------------------------
    As described above, the IMS is a mechanism that has been developed 
by S/CRS to integrate planning for high priority and highly complex 
operations, and the NSC Deputies and Principals Committees must approve 
its use. In contrast, the planning improvements we suggest in our 
report on DOD stability operations is focused on the wide range of 
military plans combatant commanders develop for potential contingencies 
on a routine basis for which they may need to seek input from other 
agencies or organizations. In our report, we stated that although DOD 
has taken steps to establish interagency coordination mechanisms and to 
improve interagency participation in its planning efforts, it has not 
achieved consistent interagency representation or participation at all 
levels of planning; and that to successfully integrate planning 
efforts, DOD and non-DOD organizations must overcome a lack of 
understanding of each other's planning processes and capabilities, and 
differences in each others planning cultures and capacities.
    To improve military planning efforts we recommended that the 
Secretary of Defense in coordination with the Secretary of State take 
the following three actions:

    <bullet>  Provide specific implementation guidance to combatant and 
component commanders on mechanisms to facilitate and encourage 
interagency participation in the development of military plans that 
include stability operations-related activities.

    <bullet>  Develop a process to share planning information with the 
interagency representatives early in the planning process.

    <bullet>  Develop an approach to overcome differences in planning 
culture, training, and capacities among the affected agencies.

    Dr. Snyder. According to GAO's testimony, DOD's policies and 
practices inhibit sharing of planning information and limit interagency 
participation in the development of military plans developed by the 
Combatant Commanders. Specifically, you reported that there is not a 
process for sharing plans with non-DOD agencies, early in the planning 
process, without specific approval of the Secretary of Defense. What 
actions should DOD take to improve information sharing with interagency 
partners early in the planning process?
    Mr. Christoff and Ms. St. Laurent. As noted in testimony and our 
stability operations report, at the time of our review, DOD did not 
have a process in place to facilitate the sharing of planning 
information with non-DOD agencies, when appropriate, early in the 
planning process without specific approval from the Secretary of 
Defense. Specifically, DOD policy officials, including the Deputy 
Assistant Secretary of Defense for Stability Operations, stated that it 
is the department's policy not to share DOD contingency plans with 
agencies or offices outside of DOD unless directed to do so by the 
Secretary of Defense, who determines if they have a need to know. In 
addition, DOD's planning policies and procedures state that a combatant 
commander, with Secretary of Defense approval, may present interagency 
aspects of his plan to the Joint Staff during the plan approval process 
for transmittal to the National Security Council for interagency 
staffing and plan development. This hierarchical approach limits 
interagency participation as plans are developed by the combatant 
commands.
    Additionally, according to State officials, DOD's process for 
sharing planning information at the time of our review limited non-DOD 
participation in the development of military plans, and invited 
interagency participation only after the plans had been formulated. In 
their opinion, it is critical to include interagency participation in 
the early stages of plan development at the combatant commands. 
Likewise, in the Under Secretary of Defense for Policy's interim report 
to the Secretary of Defense on DOD Directive 3000.05, it was 
acknowledged that DOD would continue to face serious problems 
concerning the release and sharing of information among DOD, other U.S. 
government agencies, international partners, and other non-governmental 
organizations.\6\ The interim DOD report attributed issues in 
information-sharing to DOD policies and emphasized that to improve 
information-sharing capabilities senior leadership direction is 
required. Therefore, as stated in our report, we recommended that to 
improve information sharing between DOD and non-DOD agencies early in 
the planning process, systemic solutions are needed and can be achieved 
through improved guidance and more effective processes to appropriately 
share planning information with interagency representatives.
---------------------------------------------------------------------------
    \6\ Interim Progress Report on DOD Directive 3000.05, Military 
Support for Stability, Security, Transition, and Reconstruction (SSTR) 
Operations (Washington, D.C., August 2006).
---------------------------------------------------------------------------
    Dr. Snyder. According to GAO's testimony, State's planning 
framework provides unclear and inconsistent guidance on the roles and 
responsibilities within the agency between S/CRS and its regional 
bureaus.

    <bullet>  What steps should be taken to clarify the roles and 
responsibilities of organizations within State and among federal 
agencies? Who has the authority to clarify the roles and 
responsibilities government-wide?

    <bullet>  Please provide examples of what specific guidance is 
unclear or inconsistent.

    <bullet>  What consequences could occur be if State does not 
clarify the roles and responsibilities?

    Mr. Christoff and Ms. St. Laurent. To address concerns about 
various actors' roles and responsibilities within the framework, we 
recommended that the Secretary of State clarify and communicate 
specific roles and responsibilities within State for S/CRS and the 
regional bureaus, including updating the Foreign Affairs Manual.\7\ We 
also recommended that the development of the framework be completed, 
and that it be fully applied to an actual operation. Fulfilling this 
second recommendation would require that the Secretary of State work 
with interagency partners, including NSC, not only to clarify roles and 
responsibilities within State, but also the roles and responsibilities 
of agencies other than State. We also stated that although the NSC need 
not approve all elements of the framework, without such approval, it 
will be difficult to ensure that the U.S. government agencies 
collaborate and contribute to planning efforts to the fullest extent.
---------------------------------------------------------------------------
    \7\ GAO, Stabilization and Reconstruction: Actions Are Needed to 
Develop a Planning and Coordination Framework and Establish the 
Civilian Reserve Corps, GAO-08-39 (Washington, D.C.: Nov. 6, 2007).
---------------------------------------------------------------------------
    In November 2007, we reported that NSPD-44, related State and 
administration guidance, and the planning framework collectively do not 
provide clear direction on roles and responsibilities in two key areas. 
First, S/CRS's roles and responsibilities conflict with those assigned 
to State's regional bureaus and Chiefs of Mission. According to the 
Foreign Affairs Manual, each regional bureau is responsible for U.S. 
foreign relations with countries within a given region, including 
providing overall direction, coordination, and supervision of U.S. 
activities in the region.\8\ In addition, Chiefs of Mission have 
authority over all U.S. government staff and activities in their 
countries.\9\ As S/CRS initially interpreted NSPD-44, S/CRS's roles and 
responsibilities included leading, planning, and coordinating 
stabilization and reconstruction operations; these responsibilities 
conflict with those of the regional bureaus and Chiefs of Mission. S/
CRS officials stated that they expected the next version of the Foreign 
Affairs Manual to include a clearly defined and substantive description 
of the office's roles.
---------------------------------------------------------------------------
    \8\ Foreign Affairs Manual, 1 FAM 112(a).
    \9\ 22 U.S.C. 3927.
---------------------------------------------------------------------------
    Second, guidance varies regarding S/CRS's responsibility for 
preventing conflicts. NSPD-44 and the memo announcing S/CRS's creation 
include conflict prevention as one of the office's responsibilities. 
However, S/CRS's authorizing legislation and a State memo aligning S/
CRS with the Director of U.S. Foreign Assistance do not explicitly 
include conflict prevention as a responsibility. Ambiguity about S/
CRS's prevention role could result in inadequate prevention efforts. 
One DOD official in the Global Strategic Partnerships office stated 
that responsibility for prevention is currently unassigned, and the 
work might not be done without such an assignment.
    The overlap and ambiguity of roles and responsibilities have led to 
confusion and disputes about who should lead policy development and 
control resource allocation. As a result, some of State's regional 
bureaus resisted applying the new interagency planning process to 
particular reconstruction and stabilization operations. In addition, 
State and other agency staff said S/CRS had conflicts with Director of 
U.S. Foreign Assistance over which office controlled resource 
allocation for these operations, which also made it difficult for S/CRS 
to coordinate and plan reconstruction and stabilization operations 
using the framework.
    Dr. Snyder. According to GAO's testimony, State's interagency 
planning framework for stability and reconstruction operations is not 
fully approved nor has it been fully applied to any operation. What are 
the most significant challenges that S/CRS is facing in completing and 
testing this framework and how would they be best addressed?
    Mr. Christoff and Ms. St. Laurent. Three challenges have slowed 
development and acceptance of both S/CRS and the planning framework. 
First, some civilian interagency partners are concerned that S/CRS is 
assuming their traditional roles and responsibilities. Staff from one 
of State's regional bureaus believed that S/CRS had enlarged its role 
in a way that conflicted with the Regional Assistant Secretary's 
responsibility for leading an operation and coordinating with 
interagency partners. USAID staff noted how their agency had planned 
and coordinated reconstruction operations in the past and questioned 
why S/CRS now had these roles. Although most agency staff and outside 
experts we interviewed agreed that interagency coordination should 
improve, some USAID and State employees questioned why NSC was not 
given the primary role for planning and coordinating stabilization and 
reconstruction operations or for implementing NSPD-44.
    Second, some interagency partners stated that senior officials have 
provided limited support for S/CRS and its planning framework. Staffs 
from various State offices said senior officials did not communicate 
strong support for S/CRS or the expectation that State and interagency 
partners should follow its framework for planning and coordinating 
reconstruction and stabilization operations. In addition, S/CRS was not 
selected to lead planning for recent high-priority operations, such as 
the ongoing efforts in Lebanon and Somalia, which several officials and 
experts stated are the types of operations S/CRS was created to 
address. Finally, NSC approved the Interagency Management System (IMS) 
as the mechanism for communicating and coordinating across U.S. 
government sectors and between the field and strategic levels. Although 
NSC approved the mechanism in March 2007, as of November 2007 it had 
not initiated its use despite a resurgence of civil unrest in Lebanon 
and Pakistan.
    Third, interagency partners believe the planning process, as 
outlined in the draft planning guide, is too cumbersome and time 
consuming for the results it produces. Officials who participated in 
the planning for Haiti stated that the process provided more systematic 
planning, better identification of interagency goals and 
responsibilities, and better identification of sequencing and resource 
requirements. However, some officials involved in planning operations 
for Haiti and Sudan stated that using the framework was time consuming, 
involved long meetings and extra work hours for staff, and was 
cumbersome to use because it was overly focused on process details. 
Staff also said that, in some cases, the planning process did not 
improve outcomes or increase resources, particularly since S/CRS has 
few resources to offer.
    Although many agencies participated in the framework's development, 
concerns remain over the roles and responsibilities for S/CRS, State's 
regional bureaus, and the Director of U.S. Foreign Assistance. As a 
result, we recommended that the Secretary of State clarify the roles 
and responsibilities for stabilization and reconstruction activities 
within State, including updating the Foreign Affairs Manual. Moreover, 
the planning guide remains incomplete and unapproved by NSC. Although 
there is no requirement that NSC approve this element of the framework, 
without such approval it will be difficult to ensure that U.S. 
government agencies collaborate and contribute to interagency planning 
efforts to the fullest extent possible. Therefore, we also recommended 
that that the Secretary of State, in conjunction with NSC and other 
interagency partners, complete the framework's development and test its 
usefulness by fully applying it to a stabilization and reconstruction 
operation.
    Dr. Snyder. According to the preliminary observations GAO 
presented, State is facing several challenges in establishing and 
maintaining a rapid deployment corps.

    <bullet>  What are some of the most significant challenges that 
State and other civilian agencies are facing in developing a civilian 
response capability?

    <bullet>  What are some of the effects on stabilization and 
reconstruction operations if civilian agencies cannot develop the 
capability and capacity to rapidly deploy in support of stabilization 
and reconstruction operations?

    Mr. Christoff and Ms. St. Laurent. State and other agencies face 
three primary challenges in establishing internal rapid response 
capabilities. First, S/CRS has had difficulty establishing positions 
and recruiting for the Active Response Corps (ARC) and training Standby 
Response Corps (SRC) members. S/CRS plans to increase the number of 
authorized staff positions for ARC from 15 temporary positions to 33 
permanent positions, but S/CRS staff said it is unlikely that State 
will receive authority to establish all 33 positions. Although S/CRS 
has not had difficulty recruiting SRC volunteers, it does not presently 
have the capacity to ensure the additional 1,500 volunteers it plans to 
recruit by 2009 are properly trained.
    Second, although other agencies have begun to develop a 
stabilization and reconstruction response capacity, most have limited 
numbers of staff available for rapid responses to overseas crises. 
Since most agencies primarily focus on domestic issues, it is difficult 
to obtain either funding or staff for international operations not 
directly related to their core domestic missions. Finally, deploying 
volunteers, whether from State or other agencies, can leave home units 
without sufficient staff to complete their respective work.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA
    Ms. Davis. It is our understanding that if a military officer 
serves in a PRT it is not considered a joint station or joint 
experience in the same way that we think of jointness in the Services 
and that their need to be able to do that in terms of career 
development and career ladder. Are PRT commander billets identified as 
``joint billets''?
    Ms. Ward. Officers serving in PRT commander positions may request 
their experiences be reviewed to determine if they warrant the award of 
joint experience points.
    From the inception of the Goldwater-Nichols Act in 1986 until 30 
September 2007, the DoD Joint Officer Management (JOM) program was a 
billet-based system. By policy, temporary positions (such as a PRT 
commander post) were not authorized on the Joint Duty Assignment List 
(JDAL) due to the tour length requirements in Title 10, USC, Section 
664. However, statutory changes in the National Defense Authorization 
Act for Fiscal Year 2007 provide broader opportunities for officers to 
earn joint credit.
    DoD re-issued DoD Instruction 1300.19 in October 2007, updating the 
Joint Officer Management Program and reiterating DoD policy that a 
significant number of officers be educated, trained, and experienced in 
joint matters to enhance the joint war fighting capability of the 
United States through a heightened awareness of joint requirements, 
including multi-Service, interagency, international, and non-
governmental perspectives. The new Joint Qualification System is dual-
track, counting both assignments in JDAL positions as well as the 
accrual of joint experiences, no matter where they occur. Therefore, 
officers may now earn joint experience points from duties other than 
JDAL positions. The accrual of joint experience points, along with 
requisite Joint Professional Military Education, leads to joint 
qualifications.

                                  <all>

</pre></body></html>
